<html>
<title> - RECOMMENDATIONS FROM THE BLUE RIBBON COMMISSION ON AMERICA'S NUCLEAR FUTURE FOR A CONSENT-BASED APPROACH TO SITING NUCLEAR WASTE STORAGE AND MANAGEMENT FACILITIES</title>
<body><pre>[Senate Hearing 112-970]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-970

 RECOMMENDATIONS FROM THE BLUE RIBBON COMMISSION ON AMERICA'S NUCLEAR 
FUTURE FOR A CONSENT-BASED APPROACH TO SITING NUCLEAR WASTE STORAGE AND 
                         MANAGEMENT FACILITIES

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON CLEAN AIR 
                           AND NUCLEAR SAFETY

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 7, 2012

                               __________

  Printed for the use of the Committee on Environment and Public Works



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





         Available via the World Wide Web: http://www.fdsys.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-054 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
          
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

                Bettina Poirier, Majority Staff Director
                 Ruth Van Mark, Minority Staff Director
                              ----------                              

              Subcommittee on Clean Air and Nuclear Safety

                  THOMAS R. CARPER, Delaware, Chairman
MAX BAUCUS, Montana                  JOHN BARRASSO, Wyoming
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             LAMAR ALEXANDER, Tennessee
JEFF MERKLEY, Oregon                 MIKE JOHANNS, Nebraska
BARBARA BOXER, California (ex        JAMES M. INHOFE, Oklahoma (ex 
    officio)                             officio)
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              JUNE 7, 2012
                           OPENING STATEMENTS

Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     1
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     3
Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..     5
Udall, Hon. Tom, U.S. Senator from the State of New Mexico.......     6
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama, 
  prepared statement.............................................   126
Crapo, Hon. Mike, U.S. Senator from the State of Idaho, prepared 
  statement......................................................   126

                               WITNESSES

Scowcroft, Brent, Lieutenant General, U.S. Air Force (retired), 
  and President, The Scowcroft Group.............................     8
    Prepared statement...........................................    11
    Responses to additional questions from Senator Boxer.........    21
    Response to an additional question from Senator Carper.......    26
Peterson, Per F., Professor, Chair, Department of Nuclear 
  Engineering, University of California, Berkeley................    27
    Responses to additional questions from Senator Boxer.........    29
    Response to an additional question from Senator Carper.......    34
Fettus, Geoffrey, Senior Project Attorney, Natural Resources 
  Defense Council................................................    45
    Prepared statement...........................................    47
Wright, David, President, National Association of Regulatory 
  Utility Commissioners, and Vice Chairman, Public Service 
  Commission of South Carolina...................................    70
    Prepared statement...........................................    73
Howes, Eric, Director of Government and Public Affairs, Maine 
  Yankee.........................................................    81
    Prepared statement...........................................    83
Metlay, Daniel S., Senior Professional Staff, U.S. Nuclear Waste 
  Technical Review Board.........................................    86
    Prepared statement...........................................    88
    Response to an additional question from Senator Carper.......   109
Orrell, S. Andrew, Director of Nuclear Energy and Fuel Cycle 
  Programs, Sandia National Laboratories.........................   110
    Prepared statement...........................................   112

 
 RECOMMENDATIONS FROM THE BLUE RIBBON COMMISSION ON AMERICA'S NUCLEAR 
FUTURE FOR A CONSENT-BASED APPROACH TO SITING NUCLEAR WASTE STORAGE AND 
                         MANAGEMENT FACILITIES

                              ----------                              


                         THURSDAY, JUNE 7, 2012

                               U.S. Senate,
         Committee on Environment and Public Works,
              Subcommittee on Clean Air and Nuclear Safety,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m. in room 
406 Dirksen Senate Building, Hon. Thomas R. Carper (Chairman of 
the Subcommittee) presiding.
    Present: Senators Carper, Barrasso, Udall, Merkley, and 
Alexander.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Good morning; welcome one and all, General 
Scowcroft, Professor Peterson, ladies and gentlemen.
    We appreciate the efforts of all our witnesses to be here 
today. I want to pass on my very best to Congressman Hamilton, 
who is one of my heroes and mentors from my time in the House. 
I appreciate it, and hope he is doing well.
    Today's hearing is really one of several that we hope to 
hold on the work of the Blue Ribbon Commission on America's 
Nuclear Future as our Committee starts to deliberate on how we 
move forward on what I think what we all believe is the very 
important issue of nuclear waste disposal in this country and 
really in the world. Specifically today we will be focusing on 
the consent-based siting recommendations made by the 
Commission. Senators will have 5 minutes for their opening 
statements, and then we will recognize our first panel of 
witnesses, two members of the Blue Ribbon Commission itself.
    General Scowcroft and Dr. Peterson will have 5 minutes each 
to offer their statements to our Committee. If you go a little 
bit over that, that is OK. But not too far over that. Following 
the first panel's statements, we will have one round of 
questions. And somewhere during this, we will probably start 
some votes. I think we have one vote today at 10:30. So we will 
deal with that, and then start right back up. Maybe if we are 
lucky we will be able to continue in session. I would like to 
try that.
    Then our second panel of witnesses will come forward, and 
their testimony will be followed again by another round of 
questions. That is sort of the game plan. We will see how it 
works out.
    Across this country, we have 104 currently operating 
nuclear power reactors who are providing this nation with 
clean, reliable power. They provide roughly 20 percent of the 
electricity to the people of this country. Unlike fossil-fueled 
power plants, these nuclear power plants do not emit sulfur 
dioxide, do not emit nitrogen oxide, do not emit mercury, do 
not emit carbon dioxide, all of which harm our health and our 
environment. Currently our nuclear reactors are storing spent 
nuclear fuel onsite in a safe and reliable manner.
    I have been told that the technology we have to store spent 
nuclear fuel, called dry cask storage, can be safe for another 
50 to as many as 100 years, perhaps even longer. However, our 
nuclear reactors were not designed to keep the spent fuel 
onsite forever. And as our reactors age and are decommissioned, 
we must find an alternate resting place for our nuclear spent 
fuel.
    Unfortunately, our country has been on a path to finding a 
place for nuclear spent fuel for decades. It was over 30 years 
ago when Congress realized the importance of finding a 
permanent solution for disposal of our spent fuel and high 
level waste. In response, Congress passed the Nuclear Waste 
Policy Act of 1982, moving this country forward toward deep 
mine geologic nuclear waste repositories.
    After years of study and debate, we find ourselves 30 years 
later at what is really a dead end. We have no functioning 
nuclear waste repository and none in the foreseeable future. I 
applaud President Obama for realizing that we need to forge a 
new pathway to dealing with our nuclear waste by forming this 
Blue Ribbon Commission which is represented here today.
    I want to thank General Scowcroft, and I want to thank 
Congressman Lee Hamilton, Commissioner Peterson, and the other 
commissioners for what is very good work on this effort. I 
believe the Commission did a thorough job, reaching out 
literally to thousands of Americans and folks all over the 
world in searching for the best way to move forward on this 
front. The Blue Ribbon Commission recommendations provide us 
with an excellent road map to enable us to not just find a new 
path, but to go the right direction.
    Before we start running full speed ahead, we need to make 
sure that we fully learn from our past mistakes and not repeat 
those missteps. If not, our country may well find ourselves 30 
years from now in another dead end situation, the kind that we 
face today.
    I believe that one of the biggest mistakes that we made is 
that we were unable to get consent from all parties on the 
location of disposal. Somehow we have learned in communities, 
really, States across the country to compete with one another 
for the siting of prisons in their States as opposed to other 
States, but haven't learned how to get communities to compete 
for our disposal sites for spent fuel.
    Some of my colleagues have heard me discuss in the past in 
Delaware that siting prisons is not an easy thing to do in 
fairly dense populations. But we have found there are a number 
of other States around the country who, as part of their 
economic development plan, would be a host to build prisons and 
host prisoners from other States. If we can get States to do 
that, we ought to be able to get figure out who would like to 
do what they are doing over in France, in providing good paying 
jobs in high tech facilities for spent fuel.
    That is why I believe, out of all the Commission's 
recommendations, the recommendation on consent-based siting is 
the most important, and that is why we are holding our hearing 
today on this important issue.
    As a former two-term Governor--and I know Senator Alexander 
is a former two-term Governor and knows this as well, and so do 
our other colleagues--but I know that any consent-based 
approach must include a meaningful partnership between Federal, 
local, and State leaders. We also have to have open 
communication with the people who live and work in and around 
those communities. Only with open communication will we be able 
to re-establish the public trust and confidence that is needed 
to solve our nuclear waste disposal issues once and for all.
    In closing, I am looking forward to today's discussion. I 
am especially interested in hearing what we have learned from 
our mistakes and what we can do different as we examine how 
consent-based siting might work here in the USA.
    With that, let me turn to my partner in crime, Senator 
Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman.
    I would like to join you in welcoming all the witnesses who 
have agreed today to be here to testify, including the two Blue 
Ribbon Commissioners. Most especially I want to welcome 
Lieutenant General Brent Scowcroft, the co-chair of the Blue 
Ribbon Commission. Thank you for your service to our country 
and for agreeing to testify today. Thank you both.
    Mr. Chairman, the issue of the storage of nuclear waste is 
vital to maintaining and expanding affordable nuclear power in 
the United States. All of us here know that Congress took 
action 30 years ago to begin addressing the problem of the 
build up of nuclear waste stored at nuclear plants throughout 
the United States. The Nuclear Waste Policy Act passed by 
Congress laid out a process that looked at three possible long-
term storage sites. Yucca Mountain was deemed the best by the 
Department of Energy after a thorough technical analysis.
    Congress has voted a number of times to retain Yucca 
Mountain as the national site, and $15 billion has been spent 
on the project. Nineteen billion dollars is the estimated 
taxpayer liability to be paid out of the judgment funds to 
utilities because the DOE has not yet removed the nuclear waste 
as promised. Thirty billion dollars is the total amount of IOUs 
in the Nuclear Waste Trust Fund that ratepayers have been 
paying into that must eventually be paid back by the taxpayers 
because Congress spent the money on other programs.
    Unknown is the cost of creating another Federal agency to 
manage nuclear waste, as recommended by the Commission.
    The Yucca Mountain project goes back three decades, and it 
seems that we are nowhere near today yet a long-term solution. 
The question we have to ask is, how do we know that if we adopt 
the recommendations laid out in the Commission's report that we 
won't be back here again three decades from now, having spent 
billions more without a long-term storage solution. Can this 
plan be a bridge that will result in long-term solution, or 
will this kind of be a bridge back to square one?
    So that is what I hope to find out in what I hope will be a 
series of hearings on this important subject. The barriers to 
establishing a long-term storage facility for nuclear waste are 
the same barriers that interim storage facilities will face. So 
whether it is the cost of shipping the waste and building the 
storage facilities, whether it is the siting of the facilities, 
whether it is the transportation routes for the shipment of the 
waste or the environmental impact of shipping and storing the 
waste, or the bureaucratic red tape of permitting the project 
across multiple governmental entities, none of these issues 
have yet gone away.
    Even while advocating a new consent-based approach to 
siting the waste, which we will explore today, the Commission 
itself admits in the report that `The crux of the challenge 
derives from a Federal, State, tribal, and local rights dilemma 
that is far from unique to the nuclear waste issue and no 
simple formula exists for solving it.''
    So the Commission is attempting to solve this problem and 
offer solutions to the siting and storage of waste. They have 
cited examples in New Mexico, Finland, France, Spain, and 
Sweden where there have been possible templates for us to 
follow.
    So I look forward to exploring these examples and see if we 
have found something new here that can work. But we must not 
lose sight of the ultimate goal here, which is, where is the 
long-term solution, and are we getting there any time soon. We 
must not forget that nuclear power is a viable part of our 
energy mix. It is affordable, runs 24 hours a day, 7 days a 
week. It is an essential part of an all of the above strategy.
    We cannot secure our country's energy future without 
providing for its continued success. That means developing our 
natural resources such as mining for domestic American uranium, 
found in abundance, Mr. Chairman, in my home State of Wyoming. 
It also means expediting the siting and construction of new 
nuclear power plants across the country and providing for a 
long-term storage facility for spent fuel.
    So I pledge to continue to work with my colleagues, with 
you, others on the Committee and in the Senate to achieve these 
things. Again, thank you very much for this hearing this 
morning, and I look forward to the testimony.
    Thank you, Mr. Chairman.
    Senator Carper. Thanks a lot for your statement.
    I think Senator Merkley might be up next, then Senator 
Alexander.
    Senator Merkley. I will simply say that I appreciate your 
report very much, that this is an incredibly important 
challenge, and I look forward to your testimony.
    Thank you.
    Senator Carper. Short but sweet, thank you.
    Senator Alexander.

          OPENING STATEMENT OF HON. LAMAR ALEXANDER, 
            U.S. SENATOR FROM THE STATE OF TENNESSEE

    Senator Alexander. Thanks, Mr. Chairman.
    Senator Carper. I know this is an issue of real interest to 
you, and I am delighted that you are part of this.
    Senator Alexander. Thank you. Thank you for having the 
hearing, and to you and Senator Barrasso, and after we vote I 
will be back so I can hear what all the witnesses have to say 
and hopefully ask some questions.
    General Scowcroft, Professor Peterson, thank you both for 
your hard work on all of this. My view on nuclear power is 
pretty well known. To think about using windmills when we have 
nuclear reactors would be like General Scowcroft going to war 
in sailboats when we had a nuclear navy available. But I won't 
get into all that today.
    As the Chairman said, and as Senator Barrasso said, we have 
had a stalemate here for about 25 years, as you have said in 
your report. And we in Congress have caused some of that. And 
we need to break that stalemate. Your report told us something 
we know or should have known; it is the obvious that no policy 
or process involving nuclear waste can be successful unless it 
is consent-based along the way.
    So we have tried to break that stalemate. And by we, I say 
Senator Bingaman, Senator Feinstein, who are the ranking 
members on Energy and the Energy Appropriations Committee, and 
Senator Murkowski and I, who are the ranking Republican 
members, we have decided that we are going to work together, 
Mr. Chairman, with you and others to try to break the 
stalemate, address the issue and begin to implement the best 
ideas from this report.
    Two things have happened this year which are moving us in 
that direction. First, we were able to include, with the 
approval of the Authorization Committee leaders, a provision in 
this year's Energy and Water Appropriations bill that creates a 
pilot program for the Department of Energy to begin to find 
consolidation sites for used nuclear fuel. That would be a 
consent-based process, and it would be a place where you would 
put nuclear fuel before it goes into a long-term repository.
    We thank you for the endorsement by the co-chairs of your 
Commission of this idea. Dr. Peterson has also commended the 
idea; that is a big help. Whether one is for or against Yucca 
Mountain, we need to move ahead. We still need consolidation 
sites. We have some places around the country of the 65 sites 
where we have used nuclear fuel where there are no plants any 
more. Those would be obvious places where we ought to move that 
used nuclear fuel to consolidation sites.
    And it is our responsibility, as Senator Barrasso said. 
Under the law, it is our job to get the waste and to take care 
of it. We are not doing that, and the Government is liable for 
that. So that is another reason to break the stalemate.
    Still another reason to break the stalemate is, even if 
Yucca Mountain were open today, we would still need a second 
repository very quickly. Because the stuff we have would pretty 
well fill up Yucca Mountain if it were open.
    So we need to move ahead. We need to break the stalemate. I 
am very appreciative of Senators Carper and Barrasso focusing 
on this. I want to commend Senators Bingaman and Feinstein and 
Murkowski for their leadership. We know that fuel safely stored 
can be stored there for a long time, maybe 100 years. But that 
is not where it is supposed to be stored. And we need to solve 
that problem.
    The second thing that is happening is that Senator Bingaman 
and Senator Murkowski are developing a comprehensive proposal 
to try to implement the recommendations that your Commission 
has made. Senator Feinstein and I hope to be co-sponsors of 
that. We have been meeting on it regularly. We hope that that 
bill can be introduced within the next 2 or 3 weeks. Senator 
Bingaman hopes to have a hearing on it soon.
    In other words, we want to get moving. So this is an area 
in Washington where we have had a stalemate for 25 years and 
where Senators on both sides are taking advantage of an 
excellent report by the Commission. Whether or not you favor 
Yucca Mountain, we need to move ahead with consolidation sites, 
with finding a second repository. And we can argue about Yucca 
Mountain along the way.
    Thank you for being here.
    Thank you, Mr. Chairman.
    Senator Carper. Thank you, Senator Alexander, and for the 
expertise and passion you bring to this subject.
    Senator Udall, good morning.

             OPENING STATEMENT OF HON. TOM UDALL, 
           U.S. SENATOR FROM THE STATE OF NEW MEXICO

    Senator Udall. Good morning, Senator Carper. It is good to 
be here with Senator Barrasso.
    Senator Carper. It is great to have you.
    Senator Udall. Thank you for holding this hearing.
    First I would like to thank our Blue Ribbon Commissioners 
for coming, and would also like to especially welcome two 
panelists of our next panel. Geoff Fettus formerly worked with 
me in the New Mexico Attorney General's office during the WIPP 
siting process. His expertise is now very much broader, and he 
is a very knowledgeable expert with a great spirit of public 
service. Geoff, welcome.
    Dr. Andrew Orrell, of the Sandia National Lab, is one of 
our nation's best experts on the science and policy of the 
nuclear fuel cycle. Thank you for making the long trip here 
from Albuquerque to be with us. Dr. Orrell has worked on WIPP, 
Yucca Mountain, and the science behind numerous international 
and potential nuclear waste solutions.
    Sandia, Dr. Orrell and his colleagues, and Los Alamos 
National Labs are very valuable assets for the entire country 
on the nuclear issue.
    As we consider nuclear issues, I encourage all of my 
colleagues to reach out to both Sandia and Los Alamos for 
objective, reliable information. Second, I want to emphasize, 
this is an extremely important hearing. The Senate 
Appropriations Committee has already approved legislation on 
the interim nuclear waste storage. It is my understanding that 
that provision is within the jurisdiction of this Subcommittee 
and this Committee, like many of the Blue Ribbon Commission 
recommendations. We are trying to start over with clean slate, 
so I think we should proceed with the regular order whenever 
possible.
    I know the Senate Energy Committee also has a strong 
interest, and I believe we should work cooperatively with them. 
Nuclear waste policy has a poor history in Congress, as 
evidenced by Congress cutting short the site selection process 
and mandating Yucca Mountain over State objection. What goes 
around comes around.
    As New Mexico's attorney general, I had a similar 
experience, having to litigate against the Department of Energy 
over the Waste Isolation Pilot Project. We were not fighting 
over the facility itself but DOE's go-it-alone process and 
Congress' failure to provide appropriate authorization. 
Eventually we were able to obtain State regulatory authority, 
independent EPA oversight, and hundreds of millions in State 
assistance. The facility was also firmly limited to defense 
only transuranic waste. High level waste is specifically 
prohibited. These standards were eventually enacted in the WIPP 
Land Withdrawal Act. As a result, the State accepted WIPP, and 
it has been operated safely ever since. I know both of these 
Commissioners have visited WIPP and are very familiar with it.
    Both the Yucca Mountain case and the WIPP case shed light 
on what consent-based siting should mean. Our panel here today 
is very qualified to help us further understand these issues, 
and I look forward to the Committee's work.
    Once again let me say, Senator Carper, I very much 
appreciate your interest in this issue and asserting 
jurisdiction of this Committee over this issue. I know that 
this is a big issue, and I know that the Subcommittee and our 
Committee, the EPW Committee, have jurisdiction, and we should 
assert that and push forward with this issue.
    Thank you.
    Senator Carper. You are in an assertive mood today, aren't 
you?
    [Laughter.]
    Senator Carper. This is good.
    To our Commissioners, General Scowcroft, you are a hero to 
many of us, Republicans and Democrats alike, having served our 
nation under several Presidents, I think Gerald Ford, if I am 
not mistaken, and Richard Nixon, and George Herbert Walker 
Bush. We are grateful for all the years you have served and 
continue to serve.
    Dr. Per Peterson--has your first name ever been 
mispronounced? Every day?
    Mr. Peterson. I confess, I don't pronounce it correctly, 
because I do not have a Swedish accent.
    [Laughter.]
    Mr. Peterson. It does happen every now and then.
    Senator Carper. All right. Well, I come from the colony of 
New Sweden, where the first Swedes came to America, Wilmington, 
Delaware, they planted a flag almost 300--I want to say 375 
years ago, and said this was the colony of New Sweden. It is 
now Wilmington, Delaware. So a special welcome.
    You are currently, as I understand, a professor of nuclear 
engineering at UC Berkeley, part of this Commission. General 
Scowcroft said you are the brains of the operation. That is a 
high compliment. I know he has plenty of brains himself, and so 
does Congressman Hamilton.
    The full content of your written statement will be included 
in the record. I will ask you to go ahead and proceed. We will 
probably start the voting around 10:35, one vote. I want us to 
make sure we all get to hear your testimony. We may take a 
short break and come right back and ask questions.
    General Scowcroft, please proceed.

  STATEMENT OF BRENT SCOWCROFT, LIEUTENANT GENERAL, U.S. AIR 
      FORCE (RETIRED), AND PRESIDENT, THE SCOWCROFT GROUP

    Mr. Scowcroft. Thank you, Mr. Chairman.
    Senator Carper, Ranking Member Barrasso, distinguished 
members of the Subcommittee, it is a pleasure to appear before 
you today to discuss the final recommendations of the Blue 
Ribbon Commission on America's nuclear future.
    Before we begin, I would like to pass along co-chairman Lee 
Hamilton's deep regrets for not being able to be with you 
today. But I am very pleased that fellow Commissioner Per 
Peterson was able to join me.
    I would like to note that Congressman Hamilton and I were 
delighted to work with such a talented and dedicated group of 
fellow commissioners. We are thankful for the expertise and 
insights they brought to our endeavors. We had a wide 
difference of perspective on the issues, but the 
professionalism of the commissioners led to our final report 
being unanimous, a fact which we believe speaks to the strength 
of our recommendations.
    As you are aware, the Blue Ribbon Commission was formed by 
the Secretary of Energy at the direction of the President. Our 
charge was to conduct a comprehensive review of the policies 
for managing the back end of the nuclear fuel cycle and to 
recommend a new strategy. We came away from our review 
frustrated by decades of unmet commitments to the American 
people, yet confident we can turn this record around.
    Mr. Chairman, as we are all too well aware, America's 
nuclear waste management program is at an impasse. The 
Administration's decision to halt work on a repository at Yucca 
Mountain is but the latest indicator of a policy that has been 
troubled for decades and has now all but completely broken 
down. The approach laid out under the 1987 amendments to the 
Nuclear Waste Policy Act has simply not worked to produce a 
timely solution for dealing with the nation's most hazardous 
radioactive material. The United States has traveled nearly 25 
years down the current path, only to come to a point where 
continuing to rely on the same approach seems destined to bring 
further controversy, litigation, and protracted delay.
    What we found is that our nation's failure to come to grips 
with the nuclear waste issue has already proved damaging and 
costly. It will be even more damaging and more costly the 
longer it continues, damaging to prospects for maintaining a 
potentially important energy supply option for the future, 
damaging to State-Federal relations and public confidence in 
the Federal Government's competence, and damaging to America's 
standing in the world as a source of nuclear expertise and as a 
leader on global issues of nuclear safety, non-proliferation, 
and security.
    The national interest demands that our nuclear waste 
program be fixed. Complacency with a failed nuclear waste 
management system is not an option. With a 65,000 metric ton 
inventory of spent nuclear fuel spread across the country and 
growing at over 2,000 metric tons a year, the status quo cannot 
be accepted. The need for a new strategy is urgent.
    Mr. Chairman, the strategy we recommend in our final report 
has eight key elements. We are certain they are all necessary 
to establish a truly integrated national nuclear waste 
management system, to create the institutional leadership and 
the wherewithal to get the job done, and to ensure that the 
United States remains at the forefront of technology 
developments and international responses to evolving nuclear 
safety, non-proliferation, and security concerns.
    We will now discuss those in detail. I will cover the first 
four and Commissioner Peterson the last.
    Our first recommendation is a new consent-based approach to 
siting future nuclear waste management facilities. Experience 
in the United States and in other nations suggests that any 
attempt to force a top-down federally mandated solution over 
the objections of a State or community, far from being more 
efficient, will take longer, cost more, and have lower odds of 
ultimate success.
    By contrast, the approach we recommend is expressly 
adaptive, staged, and consent-based. Based on activities in the 
United States and abroad, including most notably the siting of 
a disposal facility for transuranic radioactive waste, the 
Waste Isolation Pilot Plant, or WIPP, in New Mexico, and recent 
positive outcomes in Spain, Finland, and Sweden, we believe 
this type of approach can provide the flexibility and sustain 
the public trust and confidence needed to see controversial 
facilities through to completion.
    I might just add that I had the opportunity to speak with 
the Prime Minister of Finland last evening, and he announced 
that he was very pleased with the progress that they are 
making. He thinks that it will be very successful.
    Senator Carper. Did he also mention the first Finns came 
from America through Wilmington, Delaware?
    [Laughter.]
    Mr. Scowcroft. No, we didn't get to that.
    Senator Carper. Just checking.
    Mr. Scowcroft. Our second recommendation is for a new 
organization dedicated solely to implementing the waste 
management program and empowered with the authority and 
resources to succeed. The overall record of DOE and of the 
Federal Government as a whole has not inspired confidence or 
trust in our nation's nuclear waste management program.
    For this and other reasons, the Commission concludes that 
new institutional leadership is needed. Specifically, we 
believe a single purpose, congressionally chartered Federal 
corporation is best suited to provide the stability, focus, and 
credibility needed to get the waste program back on track.
    For the new organization to succeed, a substantial degree 
of implementing authority and assured access to funds must be 
paired with rigorous financial, technical, and regulatory 
oversight by Congress and the appropriate Government agencies.
    Our third recommendation is that access to the funds 
nuclear utility ratepayers are providing for the purpose of 
nuclear waste management. Nuclear facilities are assessed a fee 
on every kilowatt-hour of nuclear generated electricity in 
exchange for the Federal Government's contractual commitment to 
begin accepting commercial spent fuel beginning by January 
31st, 1998. Fee revenue go to the Government's nuclear waste 
fund, which was established for the sole purpose of covering 
the cost of disposing of civilian nuclear waste and ensuring 
that the waste program would not have to compete with other 
funding priorities.
    The fund does not work as intended. A series of executive 
branch and congressional actions has made annual fee revenues 
of approximately $750 million a year, and the unspent $27 
billion balance in the fund effectively inaccessible to the 
waste program. Instead, the waste program is subject to exactly 
the budget constraints and uncertainties that the fund was 
created to avoid. This situation must be remedied immediately 
to allow the program to succeed.
    The Commission sent a letter to the President on December 
11th of 2011, discussing this particular recommendation in 
detail. And we will submit it as a part of this hearing's 
recommendation.
    Our fourth recommendation is prompt efforts to develop one 
or more geologic disposal facilities. The conclusion that 
disposal is needed that the deep geologic disposal is a 
scientifically preferred approach has been reached by every 
expert panel that has looked at the issue and by every other 
country that is pursuing a nuclear waste program.
    Moreover, all spent fuel reprocessing or recycle options 
either already available or under active development at the 
time still generate waste streams that require permanent 
disposal solutions. We simply note that regardless of what 
happens with Yucca Mountain, the U.S. inventory of spent fuel 
exceeds the amount that can be legally in place at that site 
until a second repository is in operation. The statutory limit 
for Yucca Mountain is 70,000 metric tons. And DOE has set aside 
10 percent of that limit for defense-spent nuclear fuel on high 
level waste, leaving only 63,000 metric tons for civilian 
waste.
    So under current law, the United States will need to find a 
new disposal site even if Yucca Mountain goes forward. We 
believe the approach set forth here provides the best strategy 
for assuring continued progress regardless of the fate of Yucca 
Mountain.
    [The prepared statement of Mr. Scowcroft follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
       
    Senator Carper. Dr. Peterson.
    Thank you, General Scowcroft.
    Please continue. The votes started at 10:30; we are about 5 
minutes into the vote. I would like for you to be able to 
complete your testimony; then we will take a short recess.

 STATEMENT OF PER F. PETERSON, PROFESSOR, CHAIR, DEPARTMENT OF 
    NUCLEAR ENGINEERING, UNIVERSITY OF CALIFORNIA, BERKELEY

    Mr. Peterson. So continuing with the disposal as a key 
element of consent-based siting of disposal facilities, the 
Commission believes that before any new disposal site is 
selected, a new, site-independent safety standard should be 
developed. So the Commission has recommended that the 
Environmental Protection Agency and the Nuclear Regulatory 
Commission, which this Committee has jurisdiction over, should 
begin working together to define an appropriate process for 
developing a generic disposal facility safety standard and 
associated implementing regulations.
    The fifth recommendation relates to prompt efforts to 
develop one or more consolidated storage facilities. Developing 
consolidated storage capacity would allow the Federal 
Government to begin the orderly transfer of spent fuel from 
reactor sites to safe and secure centralized facilities 
independent of a schedule for operating a permanent repository. 
The arguments in favor of consolidated storage are strongest 
for stranded spent fuel at shut down plant sites, of which 
there are 10 across the country. Stranded fuel should be first 
in line for transfer to consolidated facilities, so these plant 
sites can be completely decommissioned and put to other 
beneficial uses.
    The availability of consolidated storage will also provide 
valuable flexibility in the nuclear waste management system 
that could achieve meaningful cost savings, can provide backup 
storage in the event that spent fuel needs to be moved quickly 
from a reactor site, and would provide an excellent platform 
for ongoing R&D to better understand how storage systems 
currently in use at both commercial and DOE sites perform over 
time.
    We support the efforts of Senators Feinstein and Alexander 
with their proposed legislation regarding a pilot storage 
program for high level nuclear waste and spent nuclear fuel as 
it incorporates several key recommendations of the Blue Ribbon 
Commission and is a positive step toward the goal of creating 
integrated waste management program in the United States. Our 
letter of support dated April 23rd, 2012, will be submitted for 
the record.
    Sixth is prompt efforts to prepare for the eventual large 
scale transport of spent fuel and high level waste to 
consolidated storage and disposal facilities, when such 
facilities become available. The current system of standards 
and regulations governing the transport of spent fuel and other 
nuclear materials appears to have functioned well. The safety 
record of past shipments of these types of materials is 
excellent, particularly with respect to the WIPP transportation 
system.
    That being said, greater transfer demands for nuclear 
materials are likely to raise new public concerns. The 
Commission believes that State, tribal, and local officials 
should be extensively involved in the transportation planning 
and should be given the resources necessary to discharge their 
roles and obligations in this area. Historically, some programs 
have treated transportation planning as an after-thought. No 
successful programs have done so.
    Seventh is support for advances in nuclear energy 
technology and work force development. Advances in nuclear 
energy technology have the potential to deliver an array of 
benefits across a wide range of energy policy goals. The 
Commission believes these benefits, in light of environmental 
and energy security challenges the United States and the world 
will confront in this century, justify sustained public and 
private sector support for RD&D on both existing light water 
reactor technologies and advanced water and fuel cycle 
technologies.
    The eighth recommendation relates to the key topic of 
active U.S. leadership in international efforts to address 
safety, non-proliferation, and security concerns. As more 
nations consider pursuing nuclear energy or expanding their 
nuclear programs, U.S. leadership is urgently needed on issues 
of safety, non-proliferation, security, and counter-terrorism.
    From the U.S. perspective, two points are particularly 
important. First, with so many players in the international 
nuclear technology and policy arena, the United States will 
increasingly have to lead by engagement and by example. Second, 
the United States cannot exercise effective leadership on 
issues related to the back end of the nuclear fuel cycle so 
long as our own program is in complete disarray. Effective 
domestic policies are needed to support America's international 
agenda.
    In conclusion, the problem of nuclear waste may be unique 
in the sense that there is a wide agreement about the outlines 
of a solution. Simply put, we know what we have to do, we know 
we have to do it, and we even know how to do it. We believe the 
conditions for progress are arguably more promising than they 
have been in some time, but we will only know if we start, 
which is what we urge the Administration and Congress to do 
without further delay.
    Thank you for having us here today, and we look forward to 
your questions.
    [The responses of Mr. Peterson to questions for the record 
follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Carper. I want to thank you both for that joint 
testimony. We are going to recess here for a brief time; we 
should be back in about 10 minutes, and we will start right 
back, and we will go right into questions.
    [Recess.]
    Senator Carper. You were all having a lot of fun while we 
were gone. I hate to bring that to a close.
    [Laughter.]
    Senator Carper. We are finishing up the vote, and our 
colleagues are making their way back over here in the next 
couple of minutes.
    Let me ask the first question. This is really a question 
for both of you. Feel free to take turns answering it or 
whatever you are comfortable with. But it is my understanding 
that previous mechanisms for finding voluntary sites for 
nuclear waste facilities have been successful in this country. 
One of those is in New Mexico; I think it is called the Waste 
Isolation Pilot Plant.
    However, there is a different type of facility than the one 
we are talking about here, for high level waste, as I 
understand it. But I believe the New Mexico facility does take 
mid-level defense waste. And in fact, it is my understanding 
that the State and the community there agreed to a facility 
with the understanding that it would not accept high level 
waste in the future.
    Can you help provide any takeaways from the New Mexico 
experience on what we can replicate in a consent-based approach 
for high level repositories, or any cautions on what cannot be 
replicated? What can be exported from that experience in New 
Mexico and what cannot?
    Mr. Peterson. Thank you, Senator Carper. We found a number 
of very important lessons in examining the success of the 
development of the WIPP facility. I can list just a couple. One 
was that the Federal Government in the end was willing to 
negotiate legally binding agreements with the State government 
that clearly defined a set of regulatory authorities that the 
State held, and in essence gave State leadership hands on a 
steering wheel, or at least ability to put their foot on a 
brake. I think that was a key element of creating confidence 
that the facility could be operated safely, and that they could 
assure citizens that indeed it would be operated safely.
    Senator Carper. So instead of a my way or the highway, 
Federal Government calling the shots, you have the State in the 
car?
    Mr. Peterson. Yes.
    Senator Carper. And in one of the front seats of the car.
    Mr. Peterson. That is correct.
    Senator Carper. With the ability to put a foot on the 
brake. Almost like in driver's ed when I was in high school, 
you would have the student driver on the one side and then the 
instructor on the other side, both with a steering wheel and 
the pedals and everything.
    Mr. Peterson. And in the next panel, Geoff Fettus and 
others are likely to comment on the value of this. It does mean 
that whatever new entity is created by amendment to the Nuclear 
Waste Policy Act that it will be very important that it have 
the authority to negotiate and enter into these sorts of 
agreements on behalf of the Federal Government.
    Another key thing that was done was that the Federal 
Government funded an independent scientific and technical 
evaluation group called the Environmental Evaluation Group in 
New Mexico. I think the State government made a tremendous 
decision by locating that scientific review panel within their 
university system, so that it was given in essence the type of 
independence that one associates with an academic institution, 
and therefore had tremendous credibility.
    It also didn't hurt to have two very capable national 
laboratories in the same State as well. But to have independent 
source of scientific advice, separate from the Federal 
Government, I think was another key ingredient.
    Another key element was that this repository was sited and 
developed and licensed to a safety standard that was 
established in advance of the siting of the repository, not 
during or after the selection of the repository. This relates 
to the Commission's recommendation that a new site-independent 
safety standard be developed by EPA and the NRC.
    I think a final element that was critical in my judgment 
was the fact that this program had assured funding. And in the 
sense that the senior Senator from the State of New Mexico 
served on both the appropriating and authorizing committees, 
and that gave some assurance that adequate funding would be 
available to operate the facility safely after it had been 
built. We can't really rely on that good luck happening again, 
because the statistical probability, as you might guess, is 
rather low.
    So this is a key reason why the Commission has recommended 
that we need to change, at a minimum, the way that we classify 
the fee receipts in such a way that when they are appropriated, 
they don't have to compete against other discretionary spending 
priorities. The situation in terms of spending those moneys 
looks more like how we fund the Nuclear Regulatory Commission, 
where the fees offset appropriations, and Congress is not faced 
with the dilemma of needing to cut other programs in order to 
fund something that is being paid for by the fees.
    This is really critical, because I think that a local 
community really wants to have confidence that the facility 
will receive adequate funding.
    The final element was that the Office of Civilian 
Radioactive Waste Management, in its 30-year history, never had 
a single director who served for more than 2 years. In other 
words, there was a lack of continuity of leadership that, if 
you think about a consent-based process, to have the leader of 
an organization going to a local community and then knowing 
that that person is not likely to be around, say, within 18 
months, also would be a really serious problem. So this is 
another reason why we think that some type of new organization 
does need to be created to take on these responsibilities, so 
it can have the continuity of leadership that can give 
confidence to local communities that the Federal Government 
ultimately will live up to its obligations.
    Senator Carper. Those are very helpful answers. Thank you 
very much.
    Let me yield to Senator Udall, a junior Senator for now, 
but not for long. You will soon be the senior Senator from New 
Mexico. I say that sadly, because we love Jeff Bingaman.
    Senator Udall. We sure do, we sure do. And Senator Carper, 
we are going to miss him very much, and miss that ability as 
Professor has pointed out, how he was serving on several 
committees that were really key.
    Senator Carper. I also know, I say this to our witnesses, I 
also know that the interests of New Mexico will be in very good 
hands.
    Senator Udall. Well, you are very kind. We are going to 
work hard on that.
    And let me say to Dr. Peterson, I think you pulled out some 
of the very good lessons on the Waste Isolation Pilot Project. 
I wanted to explore a little bit more of those with both of you 
here in terms of questioning.
    Should a State as a whole have the right to accept or 
reject a nuclear waste site in its borders, and how should that 
authority work?
    Mr. Scowcroft. That is a very hard question for us to 
answer.
    Senator Udall. That is why I asked it.
    [Laughter.]
    Senator Udall. You were given a lot of time to think about 
that.
    Mr. Scowcroft. Well, we looked a lot at the differences 
between New Mexico and WIPP and Yucca Mountain. I think you put 
your finger on the principal difference. In New Mexico, there 
is a general acquiescence that this is good for the State, good 
for the country. So that is completely lacking in Nevada, where 
local communities are by and large very supportive, the State 
communities are very opposed. I think that Per has described a 
number of the details.
    But WIPP is what gives me the optimistic confidence that we 
can move ahead. Because I think the attitude that we found down 
there, that I found down there, and I am not an expert like Per 
is, was immensely reassuring that this consent adaptive 
approach, if really taken seriously by both sides, can work.
    Senator Udall. General Scowcroft, you still didn't answer 
this. The question was very pointed here. Should a State as a 
whole have the right to accept or reject a nuclear waste site 
in its borders, and how should that authority work? You are 
comparing Nevada and New Mexico. As you know, and I think the 
history you are talking about, what happened in Nevada was the 
High Level Nuclear Waste Policy Act, which had a very 
scientific process, broad selection of sites, was shortened by 
Congress, and Congress basically said, it is going to Nevada 
and forced it down Nevada's throat. I think at the time the 
Governor and local officials, there was a lot of objection.
    In New Mexico, it was different. The Governor and local 
officials and I believe the leadership in the Congress all had 
a very accepting attitude. So they came together and talked 
about, well, what should this agreement be. And as one of the 
parts of the agreement, as I mentioned in my opening statement, 
was the idea that no high level waste was going to come to New 
Mexico, that this was going to be a transuranic waste site.
    So that is why I asked this question to you. It is one I 
know, I think you have tried to finesse in your report. And I 
am trying to get to the real heart here. Should a State as a 
whole have the right to accept or reject a nuclear waste site 
in its borders, and how should that authority work?
    I realize that it is a tough question. But that is why we 
hired you to do this.
    Mr. Scowcroft. Well, and I am speaking now more as an 
individual, because we didn't resolve that in detail, I will be 
honest with you.
    Senator Udall. Yes, but please, as an individual, your 
best. You sat through all of this; you have seen the 
experiences. Tell us what you think.
    Mr. Scowcroft. I think to be successful we need to have 
State and local communities together. If they are not together, 
it is not going to work. So I think part of the whole consent 
process is working with the communities as a whole, State, 
local, tribal, whatever they are, to make it work.
    Senator Udall. Dr. Peterson, your thoughts on that 
question.
    Mr. Peterson. I think that in our report we essentially 
recognized that this is the major issue. So the final report 
does address it more specifically in the sense that it points 
out that in the end, the ability to opt out and what the 
conditions would be and how long should it be unconditional is 
best left to be a matter of negotiation between the Federal 
Government and the State. Because for example, if you are going 
to enter into a mortgage to purchase a house, there is a point 
and time where you make these decisions.
    But in this case, by having the ability to opt out be one 
of the most important and key elements of negotiation, you can 
preserve an unconditional opt-out initially. Of course, if any 
safety issue arises associated with the site, there should be 
an immediate ability to put a brake onto the whole thing until 
things are fixed.
    The timing and ability to opt out is something that in the 
phase of the operative approach probably needs to be worked out 
as a part of the negotiation between the State and Federal 
Governments.
    Senator Udall. Yes. And I think Senator Carper, he has 
pointed out an issue here that is very important when we look 
at final legislation. Many of the issues that arise along the 
way, what happened in the Waste Isolation Pilot Project was 
local people and State people were very worried about the 
safety issues and they were worried about highways, they were 
worried about emergency preparedness. And many dollars, 
hundreds of millions of dollars, were put toward that, to 
alleviate the fears, to improve the roads, to get emergency 
preparedness in place, No. 1.
    And then the issues that you both talked about came 
together around, should we have the site, how we should have 
it. And the State was very worried about the science. The State 
was saying, well, we know the big Federal Government has a lot 
of science, we know about the national laboratories. But as a 
State, we want to have some oversight. So as part of the 
negotiation, as you both pointed out and you put in your 
report, the Environmental Evaluation Group was created. These 
were independent scientists, and they walked every step with 
the Federal scientists along the way, challenged them at times. 
I think Dr. Orrell will talk a lot about this when he hits the 
testimony here.
    So there were some important lessons that I think were 
learned. I have gone on way too long, but I really, and I only 
asked one question, and you see how hard it is to get to the 
bottom of that crucial question.
    [Laughter.]
    Senator Udall. I hope Senator Alexander will focus on in 
this, too. It is important to protect Tennessee, I know, from 
the unilateral action of getting a nuclear site.
    Senator Carper. It may have only been one question, but it 
was a pretty good one.
    Senator Alexander, before you begin, let me just ask 
something. I have kind of been thinking out loud here about the 
role that Senator Domenici played in all this, as an authorizer 
and as appropriator. I think Pete, who was a colleague for many 
years, may have seen, in fact, in the words of Albert Einstein, 
in adversity lies opportunity, potential for adversity. But 
also the potential for real economic opportunity for the people 
of New Mexico, if they figure it out and play their cards 
right. I think, arguably, they have done that pretty well.
    Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman.
    As I said in my opening remarks, whether you are for Yucca 
Mountain or against Yucca Mountain, we need to break the 
stalemate. That is the point of the Commission report, right?
    Mr. Peterson. Yes.
    Senator Alexander. You said 25 years is long enough just to 
be sitting there, and we need to get on with it. And if I am 
not correct, you said even if that, as far as a repository, 
even if Yucca Mountain were open, we would soon need a second 
repository; is that correct?
    Mr. Scowcroft. That is correct.
    Senator Alexander. So we have that work to do.
    And you didn't define what you meant by consent-based. Was 
that deliberate? You didn't say the State legislature has to 
pass a law and the local city council has to pass it. You 
didn't say that.
    Mr. Scowcroft. No, we didn't, because we said consent-based 
also is adaptive. It depends on the circumstances, and it may 
be different in different areas.
    Senator Alexander. Did you envision that there would be 
incentives to local governments to do that?
    Mr. Scowcroft. Yes, we did, and I think Per has talked 
about some of those. The research laboratory, all kinds of 
things that can make such a facility attractive to the 
community.
    Senator Alexander. Basically whatever it took to create an 
attractive environment so that people want to compete for this. 
Is that correct?
    Mr. Scowcroft. Part of the consent basis.
    Senator Alexander. In my experience, and I don't want to 
prejudge this, and this may not even be a part of Senator 
Bingaman's bill, but for a long-term repository, I would think 
that the Federal Government would want the Governor and the 
State legislature to pass a law approving it. Then if I were 
the Governor, I would want the Congress to pass a law approving 
it, because I wouldn't want the next President or the next 
Governor to undo it.
    So my guess is that this will work, what we mean by 
consent-based will work itself out. Because communities who 
compete for the research laboratory or whatever this 
opportunity turns out to be will try to put together the most 
attractive package they can. And then from whoever the Federal 
administrator is will look at it and say, well, New Mexico has 
A, a history, B, their Governor or legislature said yes, or 
city council said yes, or Tennessee said yes. And that would be 
a part of an attractive proposal to the Federal Government, 
would it not, to know that you had that kind of backing in law, 
rather than just some statement by a Governor who might not be 
there next year.
    Mr. Scowcroft. Absolutely. And that is essential. And in 
our Federal system, it is much more complicated than in other 
countries where we have looked, like Sweden and Finland and so 
on, where they don't have a Federal system. They have actually 
had communities bidding against each other.
    Senator Alexander. Well, I would hope that would happen 
here.
    Mr. Scowcroft. But it is more complicated here because of 
the nature of our structure.
    Senator Alexander. Yes, but still, I think Senator Carper--
and I have mentioned this myself, I had the same experience 
with prisons when I became Governor. We couldn't locate one, 
and I announced that we only had one, and we would have a 
competition. Pretty soon we had three proposals. So we can make 
it attractive, and should.
    I think your consent-based recommendation just clears the 
air, it doesn't resolve Yucca Mountain for now. But again, 
whether or not--whether one is for Yucca Mountain, as I am, or 
whether one is against it, as Senator Reid is, it doesn't 
really matter in terms of whether we need a second repository 
or consolidated site.
    Now, let me ask about these consolidated sites. The Nuclear 
Waste Policy Act allows consolidated storage only after a 
permanent repository has been licensed. Now, in the legislation 
that Senator Feinstein and I have in the Appropriations 
Committee, we separate these consolidated sites. We don't call 
them interim sites, because there might always be something 
there on its way to a permanent site.
    But can you discuss why you in your recommendation 
separated the consolidation site from the search for the 
permanent repository and whether or not you think it is a wise 
idea for us to move ahead as the appropriations language says 
with identifying one or more pilot consolidation sites? 
Although in the end, if any site were chosen, it would have to 
be approved by an act of Congress.
    Mr. Peterson. That is an excellent question. I think we 
found that the benefits of developing consolidated storage are 
so large in terms of taxpayer liability, of being able to 
collect material into a smaller number of locations and return 
unused sites to more productive uses. And to gain experience 
with transportation at smaller scale, so that we can build that 
capability. So it makes sense to move forward on consolidated 
storage in parallel with, not after the development of a 
geologic repository.
    This does take amendment to the Nuclear Waste Policy Act, 
and it is just one of several areas where we made 
recommendations. You had also mentioned the importance of 
incentives. We reviewed the current structure of incentives in 
the Nuclear Waste Policy Act and found that they probably would 
not work as well as they should. So the report provides 
recommendations for ways to improve the incentive basis for 
that.
    Senator Alexander. But did I state it correctly, your 
recommendation and support for the idea of moving ahead with 
identifying consolidation sites does not decide the question of 
Yucca Mountain one way or the other? Whether we are for Yucca 
Mountain, am I accurate to say whether we are for it or 
against, we still need to move ahead with consolidation sites, 
and we still need to move ahead as soon as the legislation is 
passed to begin to identify a second repository?
    Mr. Peterson. Absolutely. Clearly the question of what 
needs to be done with Yucca Mountain is quite controversial. I 
think if our Commission had been required to answer that 
question, we would have had a difficult time reaching a 
consensus. But what we found is that the things that we 
recommended that we do move forward on, developing a new 
repository, developing consolidated storage, creating a new 
entity, these are things we need to do, as the Commission said, 
regardless of whether we were to retain, discard, or place into 
deep freeze or whatever it ends up being, what happens to 
Yucca, these are other things that really are important for us 
to move forward on as promptly as we can.
    Senator Alexander. Mr. Chairman, may I ask one more quick 
question?
    Senator Carper. Let us discuss this.
    [Laughter.]
    Senator Carper. Go ahead.
    Senator Alexander. Thank you, Mr. Chairman.
    Did you weigh--sometimes the simplest solution is the best 
solution. And the simplest solution for used nuclear fuel is to 
leave it where it is. I mean, you have security, you don't have 
to transport it, which is hard to do and sometimes risky. And 
so a consolidation site takes time, takes a lot of money, 
requires transportation, which could be risky.
    So did you weigh those two things and still come down on 
the side of the need for consolidation sites?
    Mr. Scowcroft. Yes, we certainly did. We looked at all the 
different possibilities. And we concluded that even though it 
means more sites you have to locate, that on balance it was 
well worth it. And the transportation is certainly a problem. 
It has worked well regarding the WIPP thing, and we think that 
with certain precautions which we suggest in our recommendation 
to have the State and local authorities aware of possible 
crises, that transportation is not that big a problem.
    Senator Alexander. Thanks, Mr. Chairman, Senator Barrasso, 
for your courtesy.
    Senator Carper. You are welcome. Great questions.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    To both of you, in the testimony you discussed examples of 
where a consent-based approach has worked. You visited about 
the disposal facilities, siting for New Mexico. My question is, 
are there positive outcomes, Spain, Finland, Sweden? Could you 
tell us a little bit more about what the key common elements 
are that made those projects successful?
    Mr. Scowcroft. I would say the key common elements are that 
the prospects were made to look positive in the eyes of the 
local communities. And they were an asset to the communities. 
That is why there has actually been, in some cases, active 
bidding to hold the site.
    So I think that is the key to it, to make it not a penalty 
that is being forced on you, but an opportunity for the 
community. And that will differ for different communities, what 
they find attractive. But it seems to be working very well in 
all the other countries that we visited. As I say, none of them 
have the particular complications we do in our Federal system. 
But given that, we are optimistic.
    Senator Barrasso. Talk about some of the particular 
complications in the Federal system. In the written testimony 
you mentioned in terms of the EPA working with the Nuclear 
Regulatory Commission. I think you said they should begin 
working together to define an appropriate process for 
developing a generic disposal facility safety standard, and 
then associated implementing regulations.
    Was there a similar process in terms of developing that 
safety standard when it came to Yucca Mountain? Was that there? 
Because it seemed that the process took a long, long time.
    Mr. Peterson. For Yucca Mountain, there were difficulties 
in demonstrating compliance with the existing safety standards. 
So Congress did direct the National Academies to study the 
question and issue a report upon which a new safety standard 
could be issued. This occurred after the site had been 
selected.
    So in my professional judgment, I think the standard that 
was developed is reasonably protective. But to do this after 
you have picked a site and then to change the safety standard 
that it is required to meet through legislation I think does 
damage the confidence in the entire process. And this is one of 
the reasons why considerable amount of activity can start 
immediately in terms of facilitating the ability of local 
communities to study and to understand what the implications 
would be of hosting facilities. But before site selection 
occurs, it really would be best to have a clearly defined and 
clearly site-independent safety standard available that the 
sites would be required to meet.
    Senator Barrasso. When I think about Yucca Mountain, we 
need affordable domestic energy. And we need it now. I believe 
Yucca Mountain could be a key bridge to allowing nuclear energy 
to be a very viable part of America's energy mix. So when I 
look at this--you talk about providing incentives for 
communities to accept nuclear waste. Under your plan, would 
Nevada qualify for incentives, and is there any way now to 
incentivize communities in Nevada to move forward with Yucca 
Mountain?
    Mr. Scowcroft. We see no reason that Yucca Mountain could 
not go forward if it meets the criteria. So we do not rule out 
Yucca Mountain at all. No.
    Senator Barrasso. Great, thank you.
    Thank you, Mr. Chairman.
    Senator Carper. To my colleagues, I would just say, for 
years, whenever I see Yucca Mountain referred to in the press 
or in the media, by the media, it is always characterized as a 
nuclear waste dump. Always characterized that way. In my State, 
my guess is the same is true in Wyoming or Tennessee or New 
Mexico or any other State, nobody wants to have a dump in their 
neighborhood or in their community. As we figure out, going 
through this kind of consensus building that is being 
recommended by the Commission, not as important to make clear 
that a repository collection site, whatever we want to call it, 
not be a dump, but to be able to point to other similar 
facilities around the world where these actions have gone 
forward, and they are anything but a dump.
    And there are not only construction jobs for those 
facilities in other countries, there are very good jobs for 
people who work there and operate these facilities. And they 
spin off tax revenues for the local governments and do so in an 
environmentally sound way. We have to be smart enough, as they 
have, I believe, in some of these other countries, to meet the 
transportation concerns that have been alluded to here today.
    But we have to be smarter the second time through than we 
were the first time through. I am hopeful that the work the 
Commission has done will enable us to be a whole lot smarter. 
Or as my father used to say, just take your smart pills, Tom. 
We are going to take our smart pills, and you are going to give 
us a full prescription of those.
    Laura Haines, who sits behind me, over my left shoulder, 
gave me a note. I just want to refer to it briefly here. The 
question goes back to jurisdictions. And I show this to Senator 
Barrasso. It is very short, so I just want to mention this 
before you all are excused.
    I believe that some folks are confused about the 
Subcommittee's jurisdiction. We want to be clear and state very 
briefly what we think it is. This is a quote: ``A non-military 
environmental regulation and control of nuclear energy.'' That 
is non-military Environmental regulation and control of nuclear 
energy. That is verbatim.
    Our friends in the Energy Committee, whom we love, have 
jurisdiction over the--and this is a verbatim quote: ``A non-
military development of nuclear energy.'' That is the non-
military development of nuclear energy. And since we are 
talking about the control of nuclear waste spent fuel, we 
believe this clearly lies in this Subcommittee's jurisdiction. 
In fact, several nuclear waste bills have already been reported 
to our Subcommittee, to our Committee over recent years.
    I am sure, given the affection we have for our friends in 
the Energy Committee, that we will work well and closely with 
them and other relevant committees on this very important 
issue.
    That having been said, I just want to thank you and ask you 
to convey to your colleagues on the Commission our profound 
thanks for all the work, all the time and effort that has gone 
into this effort and to say we look forward to having good 
dialogue with you going forward, as we end up in a much smarter 
place this time than we did over the last 30 years.
    With that having been said, you are excused. Our very best 
to your colleague, Lee Hamilton. Give him our highest regards, 
and thank you so much.
    Mr. Scowcroft. Thank you very much, Mr. Chairman, Mr. 
Ranking Member. It has been a privilege to be with you.
    Senator Carper. The privilege is ours. Thank you both.
    As our second panel takes their seats, I just want to 
briefly introduce them, welcome them. Thank you all for joining 
us today.
    You heard from your warm up act. They were pretty good. We 
now look forward to hearing from each of you.
    On this panel, we welcome Geoffrey Fettus, Senior Project 
Attorney for the National Resources Defense Council, which 
announced earlier this year that in evaluating the beaches 
throughout the country, the NRDC, as I recall, announced that 
there a lot of one-star beaches, they announced that there are 
a lot of two-star beaches. You don't want to be a one-star 
beach, but we have a lot of one-star beaches, we have a lot of 
two-star beaches, not as many three-star beaches, even fewer 
four-star beaches. But there turned out to be four five-star 
beaches in America. And two of them are actually in a State 
represented by one of the two members of this Committee, 
sitting here.
    [Laughter.]
    Senator Carper. And the last time I checked, there were no 
beaches in New Mexico.
    [Laughter.]
    Senator Udall. Did you know, Chairman Carper, that we had 
an ancient ocean a million years ago in New Mexico?
    [Laughter.]
    Senator Carper. That was then.
    [Laughter.]
    Senator Carper. This is now. So if you are looking for a 
five-star beach to come to, Senator Udall, Senator Barrasso, 
feel free to visit us in Rehoboth or Dewey Beach, Delaware.
    All right, that is neither here nor there. We are 
especially happy to welcome you, given the great work that the 
NRDC did on that.
    David Wright, President of the National Association of 
Regulatory Utility Commissioners and Vice Chairman, Public 
Service Commission of South Carolina. Nice to see you. Welcome.
    Mr. Eric Howes, Director of Government and Public Affairs, 
Main Yankee. And Daniel S. Metlay, Senior Professional Staff, 
U.S. Nuclear Waste Technical Review Board.
    Dr. Metlay, great to see you. And is it Mister or Doctor; 
which do you like to be called? All right, Mister it is. All 
right, we will alternate, then.
    Dr. Andrew Orrell, Director of Nuclear Energy and Fuel 
Cycle Programs, Sandia National Laboratories.
    Again, we will ask you to hold your statements to about 5 
minutes. If you go way beyond that, we will have to rein you 
in. But we are glad that you are here, and we appreciate your 
participation and your preparation.
    Mr. Fettus.

STATEMENT OF GEOFFREY FETTUS, SENIOR PROJECT ATTORNEY, NATURAL 
                   RESOURCES DEFENSE COUNCIL

    Mr. Fettus. Good morning. I thank the Chairman and the 
Ranking Member for inviting NRDC to share its views on the 
potential legislative outcomes of the President's Blue Ribbon 
Commission.
    I have submitted written testimony to be included in the 
record, and I will focus briefly on two points now. Point one, 
in new legislation, we urge Congress to require standards for 
site screening and development criteria be in final form before 
any interim storage or disposal sites are considered. And I was 
very pleased to hear Dr. Peterson reiterate that call; we share 
it.
    The same is true for generic radiation and environmental 
protection standards. The BRC was correct when it wrote that 
regulatory requirements to license a geologic repository should 
be generic, that is, applicable to all sites in the first 
instance.
    But with respect, we are very pleased that they were 
explicit today that such standards must be in final form before 
the process begins. Why do we feel so strongly about this? 
Short circuiting the site selection process and gerrymandering 
environmental standards led directly to the loss of support 
from Nevada, substantially diminished congressional backing, 
except to ensure that the proposed site remained the sole 
option, and wholesale erosion of public support for the Yucca 
Mountain Project.
    Further, we expect any such generic standards will be 
subject to adverse pressure applied by, for example, the Office 
of Management and Budget, other involved agencies, and perhaps 
even industry. Altering regulatory standards in order to allow 
a site to be licensed, which is what happened repeatedly with 
Yucca Mountain, ensures the nation won't make progress on 
lasting solutions.
    Which takes us to point 2. The BRC's emphasis on a consent-
based approach was a step in the right direction. I am pleased 
to hear so many members of the panel amplify that today. The 
Commission studied hat worked and what didn't work over the 
past 20 years, and it looked overseas. It came to the 
conclusion that trying to foist an unending stream of nuclear 
waste on an unwilling State and an unwilling congressional 
delegation was a losing proposition.
    The BRC stated, ``It is essential to affirm a meaningful 
role for States, tribes, and local governments that is at once 
positive and substantively meaningful.'' Frankly, such an 
observation was long overdue. We concur with that observation 
but note that BRC was too tentative in its recommendation. 
Rather than attempt to build a better version of the same kind 
of mouse trap, such a change can be accomplished by amending 
the Atomic Energy Act to remove its express exemption of 
radioactive material from environmental laws. Exemptions of 
radioactivity from our laws make it, in effect, a privileged 
pollutant.
    These exemptions are at the foundation of State and Federal 
agency distrust of both commercial and Government-run nuclear 
facilities. If EPA and the States had full legal authority and 
could treat radionuclides as they do other pollutants, clear 
clean up standards could be promulgated, and we could be much 
further along in remediating the toxic legacy of the cold war, 
as just one example.
    Furthermore, we could avoid some of the ongoing disputes 
over operations at commercial nuclear facilities. Even the BRC 
recognized this, as it noted New Mexico's efforts to regulate 
aspects of the WIPP facility in Senator Udall's State, under 
its hazardous waste laws, is mentioned as a critical positive 
development. Speaking briefly outside of my text, I can assure 
you that obtaining that regulatory authority was, in short 
order, a contentious fight. But once that regulatory authority 
was obtained by the State, that was the critical step.
    Any regulatory change of this magnitude would have to be 
harmonized with NRC licensing jurisdiction over nuclear 
facilities and EPA's existing jurisdiction over radiation 
protection standards. But such a process is certainly within 
the capacity of those Federal agencies.
    Some States would assume environmental jurisdiction over 
radioactive material; others might not. But in any event, 
improved clarity in the regulatory structure and a meaningful 
State oversight role would allow for the first time consent-
based and transparent decisions to take place.
    Let me close point 2 by noting that if Congress were to 
follow a more timid path and legislate a narrow allowance for a 
particular State, such as a contract that would provide the 
State with some measure of regulatory control, that would be 
inadequate and would not provide the State the necessary 
certainty. New Mexico and its Senator might be able to inform 
this more. With the demise of the proposed Yucca Mountain 
project, we understand that some have already suggested that 
aspects of the WIPP Land Withdrawal Act might be subject to 
alteration.
    Well, as Senator Udall explained before, there were express 
promises made to New Mexico. And if those promises are even 
remotely in jeopardy, it is not clear to NRDC why any State 
would trust such a contract or future promise.
    We addressed interim storage and other matters, and I am 
happy to take questions on those as well. But I will close on 
the overarching premise that we hope guides both congressional 
inquiry and legislative drafting. That is, years or decades 
from now, just as you warned, Chairman Carper, others will face 
our current predicament unless Congress creates a transparent, 
equitable process with strong public health and environmental 
standards that can't be manipulated in order to license a site 
that may not be suitable.
    As I stated to several members of the BRC in an extensive 
public colloquy last fall in Denver, I can't guarantee that 
NRDC's recommendations will result in a solution. But I can 
point to strong evidence that following a course similar to the 
last two decades results in failure.
    Thank you again for this opportunity to testify, and I am 
happy to take your questions.
    [The prepared statement of Mr. Fettus follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
    
    Senator Carper. Thank you so much.
    Mr. Wright, please proceed.

 STATEMENT OF DAVID WRIGHT, PRESIDENT, NATIONAL ASSOCIATION OF 
  REGULATORY UTILITY COMMISSIONERS, AND VICE CHAIRMAN, PUBLIC 
              SERVICE COMMISSION OF SOUTH CAROLINA

    Mr. Wright. Good morning, Chairman Carper, Ranking Member 
Barrasso, Senator Udall, and other Subcommittee members as they 
come in.
    Thank you for the opportunity to appear before you today. 
My name is David Wright, and I am a Commissioner with the South 
Carolina Public Service Commission, and I invite you to Myrtle 
Beach, to the beaches around Hilton Head and Charleston, South 
Carolina.
    [Laughter.]
    Mr. Wright. I also have the privilege of serving as the 
President of the National Association of Regulatory Utility 
Commissioners, otherwise known as NARUC, on whose behalf I am 
speaking this morning.
    NARUC is a quasi-government, non-profit organization 
founded in 1889. Our membership includes the public utility 
commissions serving all State and U.S. territories. NARUC's 
mission is to serve the public interest by improving the 
quality and effectiveness of public utility regulation. Our 
members regulate the retail rates and services of electric, 
gas, water, and telephone utilities.
    We are obligated under the laws of our respective States to 
assure the establishment and maintenance of such utility 
services as may be required by the public convenience and 
necessity to assure that such services are provided under rates 
and subject to terms and conditions of service that are just, 
reasonable, and non-discriminatory.
    NARUC and State utility commissions in 40 States served by 
nuclear generated electricity have been involved in the 
troubled history of nuclear waste disposal since 1983. That is 
when the utilities which own used fuel were required by the 
Nuclear Waste Policy Act to enter into contracts with the 
Department of Energy. Those contracts called for payments of 
fees for nuclear generated electricity into the Treasury for 
deposit into the Nuclear Waste Fund to pay for cost of disposal 
of the used fuel beginning in 1998. As you know, that disposal 
has not happened. But the fee payments continue to be made. Or 
as a former Florida utility commissioner summarized the status 
in 1991, the Government has our money; we have their waste.
    It is now 20 years or more later, and the used fuel remains 
in indefinite storage at 72 sites in 34 States all across the 
United States. Utility commissioners care because the utilities 
pass the cost of these fees to their customers through the 
electric bill.
    Notwithstanding our position on the Administration handling 
of the Yucca Mountain issue, NARUC was closely involved in the 
work of the Blue Ribbon Commission. We wrote letters, gave 
testimony, provided comments, and attended most of the public 
meetings. We were impressed with the panel's distinguished 
members, their approach to the task, the talented professional 
staff, and the sincere interest in public input. We have asked 
DOE to preserve and maintain access to the Commission Web site.
    As for the recommendations, while we welcome them all, we 
have the following points. First, reform the Nuclear Waste 
Fund. Reform of the Fund is essential for most of the 
recommendations to occur. Next, regardless of what happens with 
Yucca Mountain, we need another repository. The lessons of 
Yucca and the better lessons of Finland, Sweden, and WIPP 
suggest that consent-based siting approach may get better 
results but will require patience.
    We have long favored consolidated interim storage but found 
the report vague as to quantity, duration, and cost. We are not 
sure what the effect will be on the fee if the Nuclear Waste 
Fund is to be used to pay for storage. We agree with the 
concept and benefits of a new Federal corporation that can 
focus solely on the waste management mission, hopefully with a 
fresh partnership attitude for encouraging the consent-based 
approach. We look forward to refining the concept in enabling 
legislation. Transportation planning and coordination with 
States and others cannot begin soon enough.
    Finally, we commend the BRC January 2012 report for 
specifying that the proposed consent-based approach to siting 
future repositories must be adaptive in the sense that the 
process itself is flexible and produces decisions that are 
responsive to new information and new technical, social, or 
political developments.
    Certainly future siting efforts will have to account for a 
widely divergent demographics populations as well as unique 
proposed repositories, topologies, and geologies. Since one 
size certainly does not fit all in this context, NARUC agrees 
that flexibility in approach is a necessary prerequisite to 
future siting initiatives. Moreover, the time is not right to 
commit to a reprocessing strategy as an economic proposition, 
although R&D should continue as the BRC recommends. Also, we 
encourage DOE to take steps to seek volunteer host communities 
to step forward in storage siting without waiting to form a new 
management organization.
    There are two areas where we disagree with the Commission 
report. The report says overall we are confident that our waste 
management recommendations can be implemented using revenue 
streams already dedicated for this purpose. There are no cost 
estimates to substantiate that belief, which likely also 
assumes the $26.7 billion in the Nuclear Waste Fund is assured.
    The report further says, ``We know what we have to do, and 
we know we have to do it, we even know how to do it.'' While we 
may wish that were true, our assessment is that there are too 
many people who are probably content to pass the problem along 
to future generations and leave the waste where it is. It is 
fitting for the Commission to call for prompt action, 
developing both consolidated interim storage and beginning the 
search for a new repository. But we may need the public 
education outreach to help persuade some who seem to favor the 
no-action alternative. Continuing to kick the dry cask down the 
road should not be an option.
    So yet another study calls for prompt action, yet despite, 
on paper at least, a financing plan, implementation relies on 
leadership from the Administration and Congress. NARUC stands 
ready to assist on behalf of the ratepayers who may not realize 
that they are overpaying for safe waste disposition.
    Thank you.
    [The prepared statement of Mr. Wright follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
    Senator Carper. Did you quote a Nuclear Regulatory or 
public service commissioner in Florida?
    Mr. Wright. I did. I believe it was Mike Wilson.
    Senator Carper. Correct me if I am wrong, I think you said 
that he may have said, the Government has our money; we still 
have our waste. I think that was the quote.
    Mr. Wright. Correct.
    Senator Carper. And I thought about that, and I thought 
maybe another way of thinking of it is, the Government has the 
ratepayers' money, and the utilities still cost via the waste 
created by their nuclear reactors. So I would look at it just 
maybe a little different.
    Having said that, the status quo is not acceptable, and we 
have to be smarter than this. And we are going to be. Thank 
you.
    Mr. Wright. And I appreciate that, too, Senator. And I will 
tell you that I don't refer to it as nuclear waste myself. I 
refer to it as a nuclear resource.
    Senator Carper. That is good.
    Mr. Howes, welcome.

             STATEMENT OF ERIC HOWES, DIRECTOR OF 
          GOVERNMENT AND PUBLIC AFFAIRS, MAINE YANKEE

    Mr. Howes. Good morning, Chairman Carper, Ranking Member 
Barrasso, Senator Alexander, Senator Udall.
    I am Eric Howes, the Director of Government and Public 
Affairs at Maine Yankee. I appreciate the invitation to appear 
before you today on behalf of the Yankee companies, Maine 
Yankee, Connecticut Yankee, and Yankee Atomic in western 
Massachusetts.
    We and our fellow sites that comprise the decommissioning 
plant coalition worked closely with the Blue Ribbon Commission 
to ensure it understood the unique impacts that our three sites 
and the six other permanently shut down reactor sites face. The 
Yankee Companies and others in the DPC especially endorse those 
BRC recommendations concerning permanently shut down plants 
that are most directly achievable: the prompt establishment of 
a voluntary incentive-based siting program that would lead to 
the licensing of a consolidated interim storage facility or 
facilities, the establishment of a first in line priority for 
the movement of spent fuel and other material being stored at 
permanently shut down reactor sites to those licensed 
consolidated storage sites, and the prompt initiation of 
programs to coordinated Federal, State, and local efforts to 
plan for the transportation of this material to consolidated 
storage and disposal facilities.
    The Blue Ribbon Commission noted the success that we enjoy 
with our citizens advisory panels at the Yankee Companies that 
help demonstrate how a community-based process works to address 
issues in meaningful discussions that yield results. In 
summary, the Blue Ribbon Commission agreed that it makes no 
sense to keep this material at former reactor sites scattered 
around the nation. We believe that fiscal year 2013 efforts 
should even more aggressively advance the resolution of issues 
identified in the BRC report.
    We are pleased to see that the Department has committed to 
restore funding for the regional transportation planning 
groups, is beginning site-specific assessments of the 
infrastructure, transportation readiness, procurement, and 
construction needs at each of these former reactor sites.
    What is yet needed is the initiation of dialogue between 
the Government and a partnership of local communities, State 
governments, and industry in an effort to develop a consensus 
siting approach for both consolidated interim storage and 
future repository facilities. These are activities that must be 
sustained if we are going to be serious about the timely 
implementation of the BRC's recommendations.
    Consolidated interim storage is a needed and important 
element of spent fuel management, regardless of the decision on 
a repository for the material. Through the prompt siting of 
consolidated interim storage facilities, the Federal Government 
will demonstrate its capability to fulfill its promises and 
commitments to remove and manage this material. The ratepayers 
and taxpayers will be relieved of the obligation to pay twice 
for storage costs and damages for the Government's contractual 
failure. And we will avoid future costs that will only 
accelerate if the material remains onsite for an indefinite 
period.
    In short, consolidated interim storage makes it possible to 
design a facility that maximizes security effectiveness and 
economies of scale, and encourages and facilities desired 
storage research efforts. Among those supporting consolidated 
interim storage are two organizations represented on this 
panel. NARUC commented that we fully concur that the spent fuel 
from decommissioned reactor sites should be first in line for 
shipment and storage at a new consolidated storage facility. 
NRDC testified before the Blue Ribbon Commission that NRDC 
believes it makes sense to provide for consolidated dry storage 
of spent fuel from permanently shut down reactors that are not 
at sites with reactors still operational.
    In addition, we note the support of such organizations as 
the New England Governors Conference, the MIT Center for 
Advanced Nuclear Energy Systems, the Nuclear Energy Institute, 
the New England Council, the National Conference of State 
Legislators, the Nuclear Waste Strategy Coalition, the 
Government Accounting Office, the Keystone Center, the National 
Commission on Energy Policy, and the American Physical Society.
    We are also grateful for the enduring support for priority 
movement of our material to consolidated interim storage of the 
many Members of Congress who represent districts and States 
where our sites are located. Thank you very much for the 
opportunity to testify today, and I am glad to answer any 
questions that you may have.
    [The prepared statement of Mr. Howes follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Senator Barrasso [presiding]. Thank you, Mr. Howes. We will 
get to the questions in a little bit.
    Dr. Metlay, we would like to call on you, please.

STATEMENT OF DANIEL S. METLAY, SENIOR PROFESSIONAL STAFF, U.S. 
              NUCLEAR WASTE TECHNICAL REVIEW BOARD

    Mr. Metlay. Thank you very much.
    Chairman Carper, Ranking Member Barrasso, Senator Udall, 
Senator Alexander, my name is Daniel Metlay. I am a member of 
the Senior Professional Staff of the U.S. Nuclear Waste 
Technical Review Board, an independent Federal agency.
    I thank you for inviting me here today to provide some 
background information on the international experience related 
to consent-based programs for siting facilities for storing or 
disposing of high level nuclear waste. I will summarize my 
remarks and ask that my full statement be included in the 
hearing record.
    This Subcommittee undoubtedly is familiar with the 
experiences in the United States, both before and after site 
characterization was limited to Yucca Mountain. It may be less 
familiar with the experiences of other countries. These, I 
believe, can be very instructive, so I will focus my comments 
on them today.
    In the last 40 years, a dozen countries, including the 
United States, have initiated more than two dozen efforts to 
identify potential repository sites. Only three of those 
efforts have succeeded in choosing a site and are still on 
track. All three have relied on volunteerism and a consent-
based process.
    In discussing site selection strategies for geologic 
repositories, it is important to note that they involve both 
technical and non-technical considerations. The process can 
start with a search for a technically qualified site, or for a 
willing host. Either approach can succeed, although the suite 
of sites that may emerge as potential candidates may be quite 
different.
    Virtually all national programs with the exception of the 
Finnish one have experienced shaky starts. Several consent-
based programs, however, are today making considerable 
progress. Two municipalities in Sweden have agreed to host a 
repository. A community in France volunteered to host an 
underground research facility, knowing ahead of time that the 
facility could evolve into a full scale repository. One area in 
the United Kingdom and more than a dozen localities in Canada 
are now involved in discussions with the implements of their 
respective national waste management programs.
    But here I caution you: volunteerism does not guarantee 
success. In Japan, even before the damage caused to the 
Fukushima facility by the tsunami, a 10-year-old consent-based 
process had bogged down. In Germany, a site proposed more than 
35 years ago by the state of Lower Saxony appears to be in 
limbo.
    In short, although the disposal of high activity 
radioactive waste in deep mined geologic repositories is the 
preferred option internationally, what most characterizes 
national programs is their diversity and their variety. Some 
programs focus from the beginning on specific host rock 
formations. Others start with generic qualifying and 
disqualifying conditions. Some countries evaluate sites one by 
one. Others adopt a parallel approach characterizing and 
comparing at least two sites simultaneously.
    In any case, communities already hosting nuclear facilities 
may be especially receptive. And the prospective of receiving a 
generous benefits package appears to be have been instrumental 
in gaining community acceptance, at least in some cases.
    So to sum up, we have learned from the experience in the 
U.S. and abroad that one, potential host communities must at 
least acquiesce to site investigations. Two, implementers must 
engage potential host communities by establishing a strong and 
long-term local presence. Three, potential host communities 
must have a realistic and practical way to withdraw from the 
siting process.
    In the United States, the experience of the Nuclear Waste 
Negotiator may be especially relevant because that effort was 
truly a consent-based siting process.
    I will close by observing that in a consent-based site 
selection process, public trust in the institutions is 
essential. It is vitally important that potential host entities 
have confidence in the credibility of the process and the 
trustworthiness of the implementer of the program.
    I thank you very much, and I look forward to questions from 
the Committee.
    [The prepared statement of Mr. Metlay follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
 
    Senator Carper [presiding]. Thank you so much for your 
testimony.
    Mr. Orrell.

 STATEMENT OF S. ANDREW ORRELL, DIRECTOR OF NUCLEAR ENERGY AND 
       FUEL CYCLE PROGRAMS, SANDIA NATIONAL LABORATORIES

    Mr. Orrell. Chairman Carper and Ranking Member Barrasso and 
the distinguished members of the Committee, thank you for 
inviting me to testify.
    My name is Andrew Orrell, and regardless of how it is 
pronounced, I have the pleasure of serving as the Director of 
Nuclear Energy and Fuel Cycle Programs at Sandia National 
Laboratories.
    Throughout my career working on both the Waste Isolation 
Pilot Plan and the Yucca Mountain project, I have experienced 
firsthand the meaning of consent-based approaches to repository 
projects and the cauldron of public controversy that can 
surround them. It is from this perspective that I offer my 
comments today, recognizing any such comments are my own and do 
not necessarily represent the opinions or positions of the 
Department of Energy or of the Sandia National Laboratories.
    We are fortunate that the United States contains many 
geologic formations that are considered to be technically 
suitable for deep geologic disposal of nuclear waste. And even 
more locations technically suitable for interim storage. But 
challenges still remain to site facilities that are socially 
and politically acceptable to both local communities, host 
States, and the Federal Government.
    One exception has been the Waste Isolation Pilot Plan. 
While noting the success of the WIPP, the Blue Ribbon 
Commission correctly notes that ``No one could have designed 
the process that was ultimately followed ahead of time, nor 
could that process ever be replicated.'' While the WIPP process 
can't be replicated exactly, it does offer important lessons, 
especially in regard to the need for unquestioned credibility 
and integrity in both the institutions and individuals 
representing the Federal interest.
    In all consent-based approaches, the placement of trust and 
credibility will be a prerequisite for success, which leads me 
to what I believe are other prerequisites that if addressed 
will enable and encourage more potential host communities and 
States to consider the siting of new nuclear waste management 
facilities, but that if left unresolved can be expected to 
stifle or confound any consent-based siting process.
    The first issue to clarify is the uncertainty of exactly 
who will be the Federal representative of a consent-based 
negotiation: the Department of Energy or as the Commission 
recommends, a new Government-chartered corporation. 
Complicating this uncertainty is the unresolved issue regarding 
whether or not to commingle the management responsibility of 
defense and commercial waste.
    The second issue needing clarification is to finalize what 
the new disposal standards and regulations will be that govern 
the determination of safety. The Commission correctly calls for 
the development of a new generic disposal standard and 
supporting regulatory requirements that ``should be finalized 
prior to the site selection process.'' And we need to recognize 
that these are often long lead time items.
    The third issue centers on when there will be a confidence 
that a geologic repository for permanent disposal of spent fuel 
and high level waste will be realized. The Commission correctly 
notes ``The challenge of siting one or more consolidated 
storage facilities cannot be separated from the status of the 
disposal program.'' The lack of a discernible repository 
development program can be expected to thwart the willingness 
of some communities or States to consider the siting of needed 
waste management facilities and perpetuate the moratoria on new 
nuclear power plant construction.
    Simply, consent-based siting efforts will be stifled so 
long as potential host communities and States have uncertainty 
over who, what, and when. Who will be the organization 
representing the Federal interest when negotiating for a 
consent? What are the final regulations that will govern a 
determination of safety? And when will there be a confidence 
over whether a geologic repository for permanent disposal will 
actually be available?
    In a broad sense, the intent of the BRC recommendations are 
to open new opportunities for the Federal Government to meet 
its nuclear waste management obligations and to promote a 
larger number of opportunities for States and communities to 
willingly host needed storage and disposal facilities. The 
technical solutions for developing one or more storage and 
disposal facilities do exist or are readily developed. Given 
that technical solutions to storage and disposal are readily 
available, the timeframes of decades often suggested for siting 
new facilities are thus rooted in the prerequisites to 
initiating a consent-based program. Prompt action on resolving 
the items noted will help minimize further delay and better 
enable this generation to meet its obligations for responsible 
nuclear waste management.
    I thank you for the opportunity to testify, and look 
forward to answering your questions.
    [The prepared statement of Mr. Orrell follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
      
    Senator Carper. Thanks very much.
    I would like for each member of the panel to briefly react 
to what you just heard from Mr. Orrell.
    We will start with you, Mr. Fettus. Just briefly, 15 
seconds.
    Mr. Fettus. I think it would be extraordinarily premature 
for Congress to not take its time to do precisely what I 
outlined and what I think Dr. Peterson and General Scowcroft 
outlined, which was to methodically work through the process of 
creating new legislation and assess the criteria.
    Senator Carper. OK, thanks so much.
    Mr. Wright.
    Mr. Wright. From what I heard, I tend to agree. I agree 
with a lot of what he has laid out. I think it is sensible.
    Senator Carper. All right.
    Mr. Howes.
    Mr. Howes. I would agree that what he has laid out makes a 
good deal of sense.
    Senator Carper. Dr. Metlay.
    Mr. Metlay. I would certainly agree, and my board has 
certainly take the position that there are no technical 
impediments to developing a repository.
    Senator Carper. All right, thank you.
    Another question for you, Dr. Metlay. You mentioned in your 
testimony that the U.S. Nuclear Waste Negotiator, which was 
established, I think, in the 1987 amendment to the Nuclear 
Waste Policy Act--could you just take a minute, I don't think 
you mentioned in your testimony, but take a minute if you will 
and talk more about the Negotiator's intended role, and is this 
something that we should or could pursue this time around. If 
you could. And be fairly brief in your response.
    Mr. Metlay. Certainly. The Negotiator, as you said, was 
established as part of the 1987 amendments. He was given a 
broad charter to negotiate with any State or native American 
tribe an agreement to host either a repository or an interim 
storage facility.
    After many years of effort, that task proved unsuccessful, 
and I believe it was in 1993 the Congress decided to get rid of 
the Office of Negotiator. Certainly the idea was a useful one, 
and other countries have tried it.
    Senator Carper. With success, or not?
    Mr. Metlay. Not so much.
    Senator Carper. All right, fair enough.
    For Mr. Orrell, and Commissioner Wright, the Blue Ribbon 
Commission recommends pursuing consolidated storage facilities 
in parallel to a disposal program. Some in Congress believe we 
can pursue interim storage first without also pursuing a 
parallel disposal program.
    Based on your experience and knowledge, how easy or 
difficult would it be to get consent at all levels of 
government if interim storage is pursued without pursuing a 
disposal program? That would be for you, Mr. Orrell, and Mr. 
Wright.
    Mr. Orrell. Well, my personal opinion----
    Senator Carper. I will ask you to be brief.
    Mr. Orrell. Yes. My personal opinion is at the moment, 
without a robust, discernible repository development program, 
the enthusiasm for moving early on consolidated storage will 
probably be short lived.
    Senator Carper. All right, thanks.
    Mr. Wright.
    Mr. Wright. What he said.
    [Laughter.]
    Senator Carper. You guys are getting good at this. I might 
invite you to come back to be our third panel today.
    This is one for the entire panel. If all of you were in our 
shoes, what would be your first action to get this country 
started on a consent-based approach toward finding a final 
resting place for our spent fuel? And what should Congress' 
first step be, and is there any action that we shouldn't take 
that we should rule out at this stage? That would be my 
question.
    Do you want to go first, Mr. Fettus?
    Mr. Fettus. You should start by doing what you are doing 
precisely today, with these kinds of hearings. You should start 
with additional hearings on the issues that are going to be 
very complicated, like fees. The issue of site selection 
process, the issue of standards. And finally, I think the one 
mistake you could make is to commence site selection process 
right now, where you start down the road of an interim storage 
site that jumps ahead of the line in all of this.
    Senator Carper. Good.
    Mr. Wright, a somewhat longer response than you gave to my 
last question, but not a lot longer.
    Mr. Wright. There are actually two things that jump out 
right away. The first is to pursue the Fed corp, because you 
have to do something with the fee to make things happen. And 
transportation, moving the decommissioned sites right away can 
happen and needs to happen, so that these sites can be put back 
to productive use.
    Senator Carper. All right, thanks.
    Mr. Howes.
    Mr. Howes. We agree, the Yankee companies agree that the 
dual track makes sense. However, the repository could be quite 
a number of years away. And so we are very appreciative of the 
language in the Senate Appropriations bill that calls for a 
pilot project for decommissioned plant fuel. We think that 
there is a good deal of lead time, both for transportation and 
other planning, that needs to go into that along with 
developing a consent-based approach for identifying a volunteer 
host community.
    So we think there are near-term actions that the Department 
of Energy, with Congress' support, could certainly get started 
on while we work out some of the knottier issues down the road.
    Senator Carper. All right, thank you.
    Dr. Metlay, just very briefly, please.
    Mr. Metlay. Based on the international experience, it is 
clear that those countries that have had a successful siting 
program have figured out the problem of distributing power 
between the central government and the periphery. Countries 
like Germany, Japan, and Switzerland where you have a Federal 
system have had a much more difficult time.
    Senator Carper. All right, thank you.
    Mr. Orrell.
    Mr. Orrell. Two issues. One, make the fundamental decision 
about whether to use Fed corp as the Blue Ribbon Commission 
recommends. It is a fundamental issue that translates to all of 
the other recommendations in some form.
    Then two, I would encourage the promulgation of the new 
disposal standards and regulations, as these to take very long 
period of time.
    Senator Carper. All right, good. Thank you all very, very 
much.
    Senator Barrasso. He is going to yield to you, Lamar.
    Senator Alexander. He already did that once. I am getting 
in his debt.
    [Laughter.]
    Senator Alexander. This has been very helpful and very, 
very interesting.
    Mr. Howes, let me ask you about the Yankee companies. You 
have three sites, right? How many reactors?
    Mr. Howes. There were three reactors, but the sites are 
fully decommissioned.
    Senator Alexander. So you have stranded fuel?
    Mr. Howes. We have stranded nuclear fuel at our three 
sites. The reactors and all of the buildings have been removed. 
The sites are fully decommissioned except for the stranded 
fuel.
    Senator Alexander. So you have the fuel that we are 
supposed to be taking care of?
    Mr. Howes. Our fuel is licensed by the NRC for both storage 
and transport, and it is ready to go when the Federal 
Government comes to pick it up.
    Senator Alexander. Well, the suggestion, and you mentioned 
the language in the appropriations bill, which comes from an 
impulse to--these things take a while. The stalemate has been 
25 years. It takes Congress a little while to pass any kind of 
legislation.
    So our thought with the appropriations bill was, can we 
take a step or two while we work out the comprehensive piece, 
or legislation, which would then take over the whole process. 
Do you think that is reasonable?
    Mr. Howes. Yes, we do. We think that there are near-term 
actions that could be taken. I think as was mentioned earlier, 
before you could actually move to consolidate interim storage, 
you would have to amend the Nuclear Waste Policy Act to do 
that. But there are any number of things you could do leading 
up to that, including beginning the transportation planning, 
identifying the routes for moving this material. Even if you 
are not sure where it is going, you pretty much know the routes 
going out of the sites.
    So yes, we think that it is eminently feasible to get 
started on this.
    Senator Alexander. In the proposal in the Appropriations 
bill, of course, any site that is chosen, even as a pilot site, 
would have to be approved by the Congress. In other words, a 
law would have to be passed. So I would guess that the law that 
would be passed would be the comprehensive next step forward.
    From your company's point of view, how would such moving 
ahead with such a consolidation site affect the Yankee 
companies?
    Mr. Howes. As I indicated, there are any number of steps 
that need to take place. For example, a transportation cask 
doesn't yet exist. The Department of Energy would need to 
provide a transportation cask to move our material.
    There are years of lead time to do this. Our sense is that 
there are things that can be done within existing authority at 
the Department of Energy to get started on this track, with the 
hope that Congress in fact will make the needed changes to the 
Nuclear Waste Policy Act to allow this to go forward.
    Senator Alexander. Mr. Wright, do you agree or disagree 
that if we in the Congress try to move as aggressively as we 
can to pass a comprehensive piece of legislation, that it is 
prudent to go ahead with the language in the Appropriations 
bill that allows the Department of Energy to begin the process 
of identifying a consolidation site?
    Mr. Wright. Yes, I believe--well, we are in favor of doing 
that.
    Senator Alexander. I know. I just wanted to get you to say 
that.
    Mr. Wright. Absolutely.
    [Laughter.]
    Senator Alexander. And what are the advantages of it, if 
you are in favor of it?
    Mr. Wright. I think it does a number of things. One, it 
proves that you can move it. And No. 2, the Government is on 
the hook for a lot of money, liability-wise. And this may start 
to reduce their exposure to some of that.
    Senator Alexander. Mr. Fettus, you are not in favor of 
that?
    Mr. Fettus. No.
    Senator Alexander. And your reason?
    Mr. Fettus. The reason quite simply, Senator Alexander, is 
that we think that not treating the storage process--and by the 
way, as was cited here today by Mr. Howes, we don't have 
objection to the stranded fuel potentially going to an 
operating reactor site as a consolidated storage. We think that 
makes imminent sense. And we have said that repeatedly, for 
years.
    That said, within the structure of where we are now, and 
after the 20 some years of gridlock, if you don't set the chess 
board properly for the next site of steps going forward, we 
think you could prematurely choose sites that either may not be 
suitable, will not fall into the consent-based process that 
Congress is going to have to very arduously try and build.
    Senator Alexander. Thank you. Sometimes we do things better 
step by step than we do comprehensively. Henry Clay nearly 
killed himself trying to pass his compromise and went to 
Nantucket to recover, and Senator Douglas from Illinois picked 
up the compromise and offered each piece of it separately. And 
they all passed, with Senator Houston being the only Senator to 
vote for each piece.
    We don't want to go so fast in identifying a consolidation 
site that we don't do an appropriate job on the second 
repository. But we have been stuck so long on the Yucca 
stalemate that my hope, Mr. Chairman, is that we can find 
prudent ways to move ahead on the consolidation site, while at 
the same time being very careful as we work through the 
authorization legislation to go aggressively for a repository 
and let the processes learn from one another and eventually be 
the same process.
    And that will not be derailed by the Yucca debate. We have 
conclusively demonstrated that we have a big difference of 
opinion over Yucca Mountain. I don't think we need 25 more 
years to do that. We also, I think, have everybody here, and if 
anyone disagrees with that, I hope you will say so, that even 
if we opened Yucca Mountain, we will soon need, or maybe 
immediately need, a second repository for the material we 
already have. So we need consolidation sites and we need a 
second repository or more. And so we are looking for a prudent 
way to get on with it.
    This hearing is a good help to that, and the testimony 
today has been very useful.
    Senator Carper. I agree.
    Senator Udall.
    Senator Udall. Thank you, Senator Carper.
    This question is to Mr. Orrell and Mr. Fettus. I am trying 
to drill down a little bit, because the BRC, on this issue of 
parallel, versus what we have in the law now, as you all know, 
DOE can't open an interim or consolidated site unless a 
permanent site is already open. So the BRC talks about 
parallel. How far along, in your opinion, do we need to be 
toward a permanent site before you start opening an interim 
site or a consolidated site?
    Mr. Fettus. I am very happy to begin. A lot farther along 
than we are now. I will start with that. As I outlined 
extensively in my written testimony, there is a long, and I 
think it is safe to say tortuous history of the repository 
program, as well as sputtering attempts at an interim storage 
program. And as Dr. Metlay I think effectively outlined today, 
countries that are having any progress are countries that have 
resolved the allocations of power. If we don't do that, and I 
have a set of suggestions in my testimony as to how we begin to 
do that in a more thoughtful way that avoids the mistakes of 
the past, I think we could do it.
    But Congress has a significant amount of work to do before 
we do anything remotely related to site selections or moving 
forward on that front. And that includes storage, or that 
includes final disposal.
    Senator Udall. Mr. Orrell.
    Mr. Orrell. Well, as was noted earlier, this somewhat 
hinges on the definition of consent and how you would secure 
that. If a host community needs consent on allowing interim 
storage, or consolidated storage facility, and it would like to 
have knowledge that there is a repository program behind it, it 
will probably define what the level of progress would be.
    But one other measure might be simply an uncontested waste 
confidence decision. We have a recent waste confidence decision 
from the NRC that unfortunately has been legally contested. 
That brings at least suspect whether or not we have a 
sufficient progress on a repository program.
    Senator Udall. Thank you.
    Mr. Fettus, you recommend removing the exemptions 
radioactive pollutants from State environmental authority. Why 
would giving States more authority over a nuclear waste site 
making consent-based siting more likely, and what does the WIPP 
experience tell us about State authority?
    Mr. Fettus. First, in answering this question, I want to 
respond briefly to Senator Carper's admonition that these 
things are seen as dumps. They are. This is some of the most 
toxic and dangerous waste that will be radioactive for a 
million years. This is a difficult thing to manage and is why 
the scientific consensus for over half a century has been deep 
geologic disposal. NRDC concurs with that consensus. This is a 
difficult matter with extraordinarily dangerous waste.
    That said, I am informed by my work for Senator Udall, when 
he was the attorney general of New Mexico, the only meaningful 
time that States felt in any measure comfortable in terms of 
accepting this kind of facility within their borders, no matter 
the incentives, if it were simply a matter of financial and 
monetary incentives or structural, then Yucca Mountain would 
have been built a long time ago, or built and actually 
operating a long time ago.
    What it is is when States essentially have a measure of 
skin in the game. And a Governor, an attorney general, its 
congressional delegation can say, we can make a deal here, 
because we have control, with of course a Federal floor, that I 
am quite sure EPA and the NRC and the Energy Department or 
whatever new entity can harmonize their standards.
    But when States have a measure of control to say, we can 
regulate this according to the most strict and protective 
standards that we see fit. And when that is the case, there is 
a potential for this kind of very complicated, difficult 
decision to go forward. Without that, it is not going to happen 
in our Federal system.
    I think the evidence bears me out on that.
    Senator Udall. Thank you.
    Senator Carper. I would like to ask Senator Barrasso if he 
feels prepared to bring us home and to be our last questioner. 
He is up to it.
    Senator Barrasso. Thank you, Mr. Chairman.
    Mr. Howes, I am concerned about how long it has taken to 
address the long-term storage of nuclear waste. It is a process 
that began three decades ago. We are no closer to a solution.
    With regard to interim storage, you talk about wanting to 
see the timely implementation of the Blue Ribbon Commission's 
recommendations. What is your opinion? What would be timely, 
when you talk about a timely implementation, to see these 
recommendations implemented?
    Mr. Howes. We recognize that nothing proceeds very quickly 
when we are talking about nuclear waste. I think the Blue 
Ribbon Commission recognized that there are long lead times for 
developing any of the consolidated storage options, including 
looking at transportation and other issues.
    The Blue Ribbon Commission, I believe, said that this might 
be able to be done in a decade or so. I think that would be a 
wonderful thing. I think it may be optimistic. We are prepared 
to work with other stakeholders to get this done as rapidly as 
possible, but we are not naive enough to think that it is going 
to happen overnight.
    Senator Barrasso. And Mr. Wright, you said in your 
testimony that you have long favored consolidated interim 
storage but find the report vague as to the quantity, the 
duration and the cost. These are very big issues to solve. 
Could you elaborate a little bit more on that point, what 
details we have that this Committee and the public at large 
need to see here? What do we need to see from this Commission 
and the Administration before signing off on a plan?
    Mr. Wright. I do believe that you do see things better now 
than maybe what has been mentioned in years past. You really 
are starting to focus on it, and I have been very gratified 
with what I have heard here today. It is still, and I agree 
with Mr. Howes, it is going to take lead time. Ten years is 
what has been thrown out on some of that stuff. But you have 
EIS reports and NEPA things that you have to go through; there 
are hoops that have to be jumped through.
    The bottom line, I think, for the confidence of commissions 
and States and the utilities that we serve and regulate is the 
money. Making sure that the money is used for what it is 
supposed to be used for, and that trust that needs to be built 
with any partnership with the Federal Government and States and 
communities that you are going to be dealing with. I think that 
is huge.
    Senator Barrasso. Thank you, Mr. Chairman.
    Senator Carper. I am going to ask just one more question, 
and if my colleague want to ask another question, they are 
welcome to. Sometimes when we have a panel, this has been a 
really good hearing, and I appreciate all of you being here, 
certainly appreciate our colleagues being here.
    Here is my question. One of the things, as my colleagues 
may recall, I like to look for consensus from a panel. You all 
agree on some things, and you disagree on some things. Maybe 
just to start with you, Mr. Orrell, one major point where you 
think there is consensus from this entire panel, what might 
that be?
    Mr. Orrell. Well, I would say that the general feeling of 
the time has come to take action.
    Senator Carper. OK.
    Dr. Metlay.
    Mr. Metlay. My board has written in one of its 
publications, it would be a shame if we temporize.
    Senator Carper. OK.
    Mr. Howes.
    Mr. Howes. The Federal Government needs to fulfill its 
obligations.
    Senator Carper. Mr. Wright.
    Mr. Wright. It is probably time to move the decommissioned 
plant site waste and get that moved to a consolidated place.
    Senator Carper. All right, thank you.
    Mr. Fettus.
    Mr. Fettus. I think there is an acknowledgment that a 
consent-based process is what has to come out of Congress now. 
There are very different views on how that can come about, but 
I think there is an acknowledgment that that has to be first.
    Senator Carper. OK.
    Senator Alexander, anything else?
    Senator Alexander. No. I hope we will have more of these 
when it is appropriate, and I hope all of the other hearings 
are as useful as this one. Thank you very much.
    Senator Carper. And I would echo that. I think our 
colleagues have 2 weeks--our colleagues, some of whom were not 
able to be here, would like to ask questions of you. They have 
2 weeks to do that. We simply ask if you receive those 
questions that you just respond to them in a prompt manner.
    Great to be with all of you; thank you for your 
participation today and for your help. Thanks.
    With that, this hearing is adjourned.
    [Whereupon, at 12:20 p.m., the Committee was adjourned.]
    [Additional statements submitted for the record follow:]

                   Statement of Hon. Jeff Sessions, 
                 U.S. Senator from the State of Alabama

    Thank you, Chairman Carper and Ranking Member Barrasso, for 
your leadership on nuclear energy issues. I look forward to 
hearing from the members of the Blue Ribbon Commission and our 
other witnesses.
    I would begin by noting that, even as our nation builds 
more nuclear power plants like those at Plant Vogtle, we still 
do not have an operational repository for spent nuclear fuel. 
Why?
    As explained in the Department of Energy fiscal year 2011 
budget justification, the Obama administration unilaterally 
``determined that developing the Yucca Mountain repository is 
not a workable option and the nation needs a different solution 
for nuclear waste disposal.''
    I do not believe it was the right decision.
    First, the law of the land--the Nuclear Waste Policy Act--
established Yucca Mountain in 1987 as the designated site for 
the nation's geologic repository for spent nuclear fuel. That 
law has not been changed.
    Second, the Yucca site has been fully studied and found to 
be a safe place to store spent nuclear fuel. This was an effort 
that took more than 25 years and cost taxpayers more than $14 
billion. The geological, hydrological, geochemical, and 
environmental impacts have been studied, including a detailed 
evaluation of how conditions might evolve over hundreds of 
thousands of years at Yucca Mountain. The Department of Energy 
has summarized these studies in several scientific reports 
which served as the basis for the 2002 decision to approve 
Yucca Mountain as a site repository.
    Third, there is a misconception that the Yucca repository 
is ``unworkable'' because of a lack of ``local support.'' In 
fact, the Board of County Commissioners of Nye County, Nevada--
the county where the Yucca repository would be sited--wrote the 
Blue Ribbon Commission in February 2011 to say that ``strong 
local community support for Yucca Mountain exists at the host 
county level.'' The county's letter states that their ``own 
research . . . convinces us that the science embodied in DOE's 
license application for Yucca Mountain and its hundreds of 
supporting documents is sound . . . '' They write that the 
Yucca repository has been ``hijacked by the politics of a 
single powerful Senator and what some view as complicity by the 
NRC Chairman.'' Attached to the Nye County letter is a 2011 
resolution by the Board of Commissioners urging completion of 
the Yucca Mountain licensing proceedings and resolving that 
``the Yucca Mountain repository can be constructed and operated 
safely.''
    So, again, this is the county where the repository would be 
sited, and the county leadership is clearly stating, on the 
record, that they support the Yucca Mountain repository.
    Finally, I would note that the Nuclear Waste Fund is about 
to reach $28 billion. Those dollars were paid by electricity 
ratepayers and were intended for a permanent solution for spent 
nuclear fuel. On June 1st the U.S. Court of Appeals for the 
D.C. Circuit raised serious questions about this matter, and 
the court indicated that it may even issue an order halting the 
collection of the nuclear waste fee.
    Chairman Carper, thank you again for holding today's 
hearing. I look forward to hearing from the members of the Blue 
Ribbon Commission, and I greatly appreciate the work they have 
done on this issue.

                     Statement of Hon. Mike Crapo, 
                  U.S. Senator from the State of Idaho

    Good morning. I thank Senator Carper for scheduling this 
hearing on the recommendations stemming from the Blue Ribbon 
Commission on America's Nuclear Future.
    I also appreciate the participation of our panelists: 
Lieutenant General Brent Scowcroft, who served as Co-Chair of 
the Commission, and Dr. Per Peterson, who served with him on 
the Commission. Thank you both for the time and consideration 
you put toward this effort.
    In carrying out its work, the BRC noted a clear ``erosion 
of trust in the Federal Government's nuclear waste program,'' 
which requires new approaches to the long-familiar challenges 
of siting, licensing, operating, and funding waste management 
activities.
    Consistent with this finding, BRC recommended the creation 
of a separate new organization dedicated solely to implementing 
a waste management program. This organization would be separate 
from the Department of Energy which currently has 
responsibility for management of defense and civilian nuclear 
waste.
    While there are no commercial nuclear power plants in 
Idaho, significant quantities of nuclear waste stemming from 
defense activities are currently stored in the State. Idaho is 
proud of the role it continues to play in support of national 
defense activities, including the Naval Nuclear Propulsion 
Program.
    It is critically important that the Federal Government not 
lose sight of its commitment to remove defense waste in 
accordance with established agreements with Idaho and other 
States by 2035. I fear that any comprehensive re-organization 
of nuclear waste management responsibilities heightens the risk 
that established agreements may be violated. This is an 
entirely unacceptable outcome.
    The BRC recommended that the Administration launch an 
immediate review of the implications of managing defense wastes 
within the DOE versus a new organization, correctly noting that 
the issue raises key questions of funding, governance, and 
congressional oversight. I support this review and urge that 
defense waste removal remain a top priority within the 
Department of Energy.
    I continue to support Yucca Mountain as the legally 
mandated, permanent geologic repository for both defense and 
civilian high level waste. Much of the DOE inventory, including 
the naval reactor spent nuclear fuel now stored in Idaho, has 
been managed and placed into a condition suitable for ultimate 
disposal in just such a deep geologic disposal facility.
    The BRC contends that the question of managing defense 
waste separately from civilian waste need not delay 
implementation of other BRC recommendations. However, it is 
crucial that whatever the actions Congress and the Federal 
Government may take to move nuclear waste disposal forward, we 
remain appropriately focused and committed to existing 
agreements with the States regarding the removal of defense 
wastes. Nothing whatsoever should be done to delay the 
permanent disposal of this waste, relative to the disposition 
of civilian waste.
    Again, I appreciate the participation of the panel members 
this morning and look forward to your insight.

                                 [all]
</pre></body></html>
